RECORD:

Docs. 197-t99

Electronically Filed
Supreme Court
scAD-19-0000561
16-JUL-2020
11 :34 PM

EXHIBIT

TTA''

PART ONE OF THREE PARTS

ANDIA
DOCUMENTED
STATEMENT
OF FAGTS

vlllrH
SUPPORTING
EXHIBITS
Prepared by
Gary Victor Dubin
For the Office of
Disciplinary Gounsel

A
Letter
List

Andia Documented Statement of Facts
wa s provided on Nove mber 7 2A 1 5 with d
6
co mplete e tatem ent of F ees a nd Costs p n o r to th
disbu rsement of d n v Q ettl eme nt fu nd s; no mo n ey wa s
moved anyilhere until Mr' Andia approved the
M r And

A

$up,porting
Exhibits
Documentation

d

disbursement

B

c

D

E

F

G

H

Dubin Law Offices had an ownership interest in the
settlement funds by written contract with Mr. Andia and
in accordance with the Settlernent Agreement; the
Retainer Agreement was consistent with Hawaii
practice, providing for an Attorney's lien on all
setflement pricceeds; furtherrnore, the Andia Retainer
Agreement provided only for foreclosure defense which
did not include an affirmative counterclaim that involved
substantial unPaid extra work.
Dubin Law Offices was a party to the Settlement
Agreement waving rights and providing consideration,
*nicn was specificalty set forth in the Settlement
Agreernent binding the Dubin Law offices, for which the
teider specifically negotiated, so that the Dubin Law
offices would be unable to fite a claim for its fees and
costs with the court representing the prevailing party on
the counterclaim
Mr. Andia reportedly had changed his name to his
current wife's last name in order to avoid creditors and
paper trail
to hide his settlement funds, obscuring
Mr And B u n til th 6 settlem ent funds WE re rece lved was
alwa ys res pe ctful a nd co m pl mentary of ihe ha rd WO rk
n h 6 D u bi n Law Offices
o f the Attorn
The settlement check was suppo sed to be rnade out to
include the Dubin Law offices as co-payee but for last
minute confusio n as to tax PaYer numbers
The ci rcumsta nces su rrounding the distribution of the
settlement funds were fullY exP lained to Mr. Elerick
Mr. Andia choose to defame the Dubin Law Offices with
Hawaii Attorneys and others unjustifiably in order to
avoid paying his fees and costs'

Page

'1

of 6

Exhibits
2 and 13

Exhibit
2

Exhibits

3and5
Exhibit
4

'.

Exhibits''

Band9

Mr. Andia continued to inconsistently object to Dubin
Law Offices withdrawing from his case, includit'lg
appearing in court before Judge Ayabe formally
objecting to its withdrawal, demanding the Dubin Law
Offices continue to represent him; however Judge
ra nted perml ssto n to wit hd raw
J

K

L

M

N

Mr. Andia refused every atternpt at conciliation,
preferring to threaten Mr. Dubin instead
Mr. Andia was properly charged; the associate billing
rates were proper as some of our associates were
being paid in excess of $150,000'00 a year' ln court,
representing the prevailing parties, the court applies
Lodestar principles as well as Hawaii's Code of
Professional Conduct, specifically Rule 1'5{a) allowing
for exceptional performance and financial results; and
here the settlement amount was frankly unheard of in
the settlement of only one part of the foreclosure case;
another factor was the fact that Mr' Andia had
continuingly stated that he was unable to pay further
fees and costs, transforming the work on his case in
reality into a contingency fee arrangenlent, which at
times it appeared likely that the Dubin Law Offices
would never get paid, however still continuing in the
case for the Andias
Mr. Andia suddenly upon receipt of the settlement funds
claimed that the Dubin Law Offices was representing
him on aIlaI fee basis expecting the Dubin Law Offices
to provide him with legal services no matter what,
clearly contradicting the Retainer Agreement he had
sign, inventing his flat fee argument as an insincere way
to avoid paying the Dubin Law Offices
Mr. Andia was fully informed regarding the settlement
by the Members of the Dubin Law Offices
Mr. Andia had first fully accepted the disbursement of
the initial funds in November 2015 after the charges
where fully explained to him, withdrawing his objection
and not complaining about the fees and costs and the
associates billing rates until several months later,

Pagc 2 of 6

Exhibits
11, 12,16 and 17

Exhibits
13 and 15

Exhibits
14 and 15

Exhibit
16

o

P

The questions asked the Dubin Law offices on october
2016 where based upon incorrect premises, for the
Dubin Law Offices in writing had a lien on the
settlement funds, the settlement had been deposited
properly initialed as "GVD" in accordance with the
established policy of the First Hawaiian Bank and later
approved by Mr. Andia, who failed to contest the
negotiation of the check in separate court proceedings
before Judg e Crandall and Judge Chang'
Mr, Forrester of the Dubin Law offices fully confirmed
to Mr. Elerick the circumstances to his knowledge how
Mr. Andia's "flat fee" claim was false, that Mr' Andia had
never earlier requested a billing statement in writing and
the Retainer Agreement provided that "we will provide
you with a periodic bitling statements only at inteivals
yo, *uy request," and that the rest of Mr' Andia's claitn
was false

O

R

S

T

Mr. Andia was given notice of receipt of th e settlement
funds and an accounting on November 7, 2015; the
Andias cashed the disbursement checks and met with
Mr. Dubin and received and cashed the checks,
approvlng the disbursement.
Mr. Dubin had fully explained to Mr' Elerick a ll of the
circumstances recited herein; with full documentation
The indorsement on the settlement check was proPerlY
initialed "GVD" in accordance with the policies of First
Hawaiian Bank and no money was disburse until fully
approved by Mr. Andia.
Judge Crandall and Judge Chang in two separate
lawsuits gave the Andias a full oP portunity to exPlain
their claims; Judge Crandall in Pa rticular issued an
order to show cause to the Andias why the funds
deposited to the Dubin Law Offices Client Trust
Account should be withheld, and in both cases before
Judge Crandall and Judge Chang the Andias did not

"u"nshowupforanyofthehearings;theonlyhearing
that Mr. Andia showed up for was that before Judge
AyabewhereMr.Andiaobjectedtowithdrawalofthe
Dubin Law Offices and Judge Ayabe rejected his
arguments.

Page 3 of 6

Exhibits
20 and 21

Exhibits
22 and 24
Exhibit
25

Exhibit
23

U

Rule 1.5(a) of the Hawaii Rules of Professional
Responsibility define "Reasonableness of Fes" as
involving many factors which must be taken into
account, which were fully reflected in the payments by
the Dubin Law Offices, and in any event Mr. Andia

Exhibit
1 3

ap

W

Mr, Andia, having approved the fees of the Dubin Law
Offices, that constituted a binding contract protected by
Article I of the United States Constitution.
Mr. Andia met with Mr' Dubin when the settfennent
funds were received in early November 2A15 and Mr'
Andia, at that time approved the fees and costs of tthe
Dubin Law offices and the Andia's disbursement check;
later, on January 9,2016 in writing Mr. Andia
acknowledged to Mr. Dubin that in earlier November
2015 meeting, "you gave me your explanation and I
emphasis added)
said
at

X

Mr, Andia from the beginning was a dlfficult ctient who
continued to use foul language in describing his lender,
stating that he was "sick of being bullshitted," and
accusing his lenders attorney's, Patricia McHenry, as
I'ditt bag and a liar," and he was simitarly fotlt
being u
mouthed concerning the entire legal system, which
should have alerted the Dubin Law Offices to what
could later be expected from him; despite what Mr'
Andia may claim, he is a highly educated and
sophisticated businessman, not the vulnerable borrowen
that he likes to claim

Exhibit
26

Y

When the settlement funds were first received, they
were placed in the Dubin client Trust Account for safe
keeping in order to expedite the clearance of the funds,
since the settlement check was written on a Rhode
lsland Bank account and could not be release until the
check cleared, which First Hawaiian Bank always
,f
exped ited o r t he Dub tn Law Offices otheruis e tak 0nE
a S lo n9 a S 1 0 d a ys n eve rth e le ss Mr And la bro ke o ut
hi S mo n ey
n a fit equrva le nt to 6 ittle c h td de ma nd

Exhibit
27

Page 4 o1'6

z

M

BB

cc

DD

As it was, the Andias were under'billed; they wene not
charged the extra 10 percent for court appearances
required by the settlement agreement, and they wene
not charged for more than the two dozen hours spent
preparing and attending the court-ordered Mediation
which resutted in the settlement counterclairn; lf
anythi the Andias were overPaid
Fronr the beginning, the Andias showed tfrrenrnseives to
be financially irresponsible, as their initia tand o'niljy
retainer check to the Dubin Law Offices was no't
honored by their bank'
Mr. Andia defamed the Dubin Law Offices b'y ctalming
the settlement check indorsement had beern fon'ged;
as a result, First Hawaiian Bank froze the Tnu'st Accournrt
funds, giving Mr. Andia an opportunity to suppott frtis
claim; however Mr. Andia refused to do so before Judg:e
qip
Crand a I and Judge ch ang and did not even show
co urt, resu Iting in those ca ses being d ismissed; Finst
Hawa 8 n Ba nk reported th at M r An dia h ad a lsc fifed a
police report to the Hawaii Police Departrnent claint0ng
forgery that theY nored
On January 9, 2016, Mr. Andia informed Mr' Du'hir't that
he was filing a lawsuit that week againsl t["le Dtr,bim Law
Offices; more than a year later' he has never done so,
after not even showing up to court when Firet Filawa0ian
Bank and the Dubin Law offices put the nnatter in cottft
lawsuits
in their re
Mr. Andia inconsistently opposed the settlentent of the
counterclaim which required the Dubin Law Offices to
spend a consid erable amount of un necessary extna
he d id not wa nt to
tim e, fo r whi ch

Page 5 of 6

Exhibit
30

Exhibit
32

Exhibit
33

EE

Mr. Andiawaited untll months after he aPProved the
assoclate fe6$, accqPted hie dlsbursement ohecks, and
cashed his disbureemen! checks befurc changirg his
mind after admittedly approving the diabursemer*q and
demanded $19,885.50 back which accordirg to him
wae the overdtargirrg for the associatee, not ltotrerrar
csntestirE the billihg nate for Mr. Dubin; in dolng sq, he
ignored the fact that he wae not bill€d punruant to tha
agreement brthe higher rate for murt appsaranc€s
and not billed for over two dozen hours rclating to the
court<ndercd idodiatlon which resufied in tfie
settlement on the counterclain'l alone; a$most
lmmediately thereafter, Mr, Dubln recognElru that the
Offlce of Discipllnary Counml does not gst inwflved in
the feee disputes, offered to take the di'spute to the
Voluntary Prograft of the Haranaii Stdo Bar for a fair
resolr$io-;, but lrfr. Andia relected that orffsr ard as
subssquently exple{lned above, proved mono [nte]est6d
ln filing a polhe raport aird oomphinlng b Flrst
Hawalian Bank than he was defendrng the mefis of his
claim.

Page 6 of 6

EXHIBIT 1

Dubin

Law
Offices

55 Merchant Street, Suite 3100
Harbor Court, Honolulu, Hawaii 96813
Honolulu (808) 537-2300 Facslmlle (808) 523'7733
San Francisco (415) 659-9855 Los Angeles (2'l3l947'6262
San Diego (019) 677-6200 Toll Free: (888)dubinlaw
Writer's E-Mall : gdubin@dubinlaw.net
www.dubinlaw.net
ATTORNEYS LICENSED IN HAWAII, CALIFORNIA AND NEVADA

November 7,2015

Robert and Carmelita Andia
7113 Pilaa Place
Honolulu, Hawaii 96825
Re' The Bank of New York Mellon v. Andia: civil No- 12-1-1412 BIA
Dear Robert and Carmelita:

Enclosed please find the verified accounting for the work on your foreclosure
case above-referenced, together with your net proceeds from the recent partial
settlement pertaining solely to your Counterclaim.
As previously advised, the settlement check was written on a Rhode lsland Bank,
as a result of which we have had to wait for it to clear. Just to be safe, please do not
deposit the enclosed check until this coming Tuesday'

We are extremely pleased with the settlement reached. lt is the largest
settlement we have yet secured for clients without a complete termination of a
foreclosure case.

As you know, we still have the second half of the case to prosecute for which
most of the preparatory work has already been done, and hopefully that too will end
with a victory.
Ordinarity, our fees in a typical foreclosure case, which takes between one and
one-half to two years to completion, run between $20,000 and $25,000. I design the
defense and things play out. ln your case, however, there were many complications.
First, you had us file, thankfully, your Counterclaim in addition to our standard
Answer with affirmative defenses.
Second, the case has been ongoing for nearly four years, double what is typical.
Third, we have had to battle two lender law firms filing motions.

DUBIN LAW OFFIGES
Robert and Garmelita Andia
Novemb er 7 , 20{ 5
For those three reasons, the charges were understandably more, as a result of
which we deliberately negotiated to make sure that the partial settlement would more
than cover our charges as well.

We remain perplexed by your confusion, your being a businessman, anticipating
that we were doing all of this work for you on a flat fee basis, and as you have now
acknowledged, you were mistaken.
As for your concern that we did not hound you for the additional amounts above
your initiai retainer, we thought to the contrary that you would appreciate our
patience, as we anticipated a more than offsetting settlement on the Counterclaim
which in fact has occurred.

please review the work done carefully and you will understand not only the
amount of skilled effort that has gone into your case, but how much success we
have had in what is too often to the contrary a graveyard in court for bonowers.

lndeed, I seriously doubt that there is a borrower in foreclosure, past and present,
in Hawaiithat has ever achieved what we have achieved for you thus far.

you indicated yesterday by email that you desire that we continue representing
you in your foreclosure case. That being the case, Richard estimates that it will cost
in fees-about $8,000 more to complete the case. Again, that is an estimate only. As
a result, I witl retain $8,000 in our client trust account for that purpose'

tf however you wish to replace us as your counsel, the $8,000 will be immediately
released to you.

Thank you for allowing us to successfully represent you'
Very truly yours,

GVD/o
enclosures
($62,297.13)
copt'es w/encl. to:
Richard T. Forrester, Esq.
Fredeick J. Arensmeyer, Esq.

2

Dubin
l^aw

55 Merchant Street, Suite 3100
Harbor Court, Honolulu, Hawaii 96813
Honolulu (808) 537-2300 Facslmile (808) 523-7733
San Franclsco (415) 659-9855 Los Angeles (2131947'8282
San Diego (619) 677-6200 Toll Free: (888) dubinlaw
Writer's E-Mail : gdubin@dubinlaw.net
www.dubinlaw.net
ATTORNEYS LICENSED IN HAWAII, CALIFORNIA AND NEVADA

IIWOICE FOR PROTESSIONAL SERVICES AI{D
CLIENTS:
PERIOD:
CASE:
COURT:
JTJDGE:

Robert King Andia and Carmelita Andia
February !7 , 2OL2 through November 6, 20L5
The Bank of New York Mellon v. Andia
First Circuit Court,' Case No. T2'L'L4L2
The llonorable Bert f . AYabe

DATE

ATTY

o2/L7 /L2

gvd
gvd
svd

/25/L2
08/os/L2
o7

08/06/t2
oe/o7 /12

08/o8/L2
o8/o8/L2

o8/22/t2
08/23/L2
08/24/L2
oe/24/L2
08/24/L2
08/27 /L2
oe/28/L2
o8/2e/12
08/30/12

COSTS

DESCRIPTION OF

HOURS

WORK

CLient Office Meeting

Reviewed ComPJ. aint and Client Material,s
Researched Chain of TitLe Issues in WestLaw
ag Continued Chain of Ti-tLe ReEearch
gvd Researched Affirmative Defenseg LM Issues
ag Further Research, Affirmative Defenses
aint
Answer to
ag
rtf Drafting Coun terclaimrThird PartY ComP1aint
rtf Drafting Counterclaim, Third Party Complaint
t
Counterclaim, Third Par
rtf Dr
st-on
t
Ii
rtf Researched
Con tra ct , Goo d Fai rh
o
f
B
reach
searched
rtf Re
t
Counterclaim Third Par
rtf Draft
rtf Drafting Counterclaim, Third Partlr Cornpl-aint

rtf
rtf

CounterclaimrThird Par
re alcove
Discussions with ag and

Draft

t

Finalized First Amd. Answer Countercl,aim
o8/30/L2 gvd Researched First Amd. Answer Coun tercLaim
LOlLO/t2 gvd Reviewed, Research Partial Motion /oismiss
sing Counsel
ag Discussions with
LO/28/12
tion To Continue PD Motion
on Sti
LO/2e/t2 agf
to/30/L2 ag Telephoned Court re Continuance
08/ 30 /t2

tt/0e/t2
t7/L3/L2

ag

ag
ag

Reviewed I Researched Reply

PM

To D :. sml. s s

ation Attendance at Court Hearing

1.50
7.50
4.25
5. 9s

3.45
2.95
3.10
4.50
4.80
s.80
2.40
3. 00
6. 00

3.10
6.10
2.30
8. 90
4. 90

3.25
1.10
0.50
a.25
7.50
1.75

L2/L6/L2
L2/L7 L2
oL/22 13
a6/26 13
07/oe 13
o7 /23 13

gvd

12 10 13
AL/L9 L4
o2 20 L4

ag

o4/30/L4
06/t7 L4
o7 /L6 t4
o7 /og 14

ag

11 24 15
Lt/25 14
L2 t7 t4
L2 18 L4

t2 t8/L4
23/L4
23/L4
L2/30/14
oL/ 05 /15
oL/08/Ls
o1l08 15
oL/L2 15

1"2

L2

01
01

t3/L5

13/L5
oL/L4/Ls

ot/76/L5

ot/26/!5
01 30 15
o2 0e/L5

02/23/t5
02/27

/ts

03/ot/ts

03/LL 15
03 11 15
03 L3/15

a9

Preparation, Hearing on Counterclain
Preparation, Court llearing on Counterclaim

Hearing
Court Re g chedu 1i
Preparation, 2nd Hearing, Status Conference
Status Conference
tion, 3rd
RCO
ste
Reviewed PRS Extension
Preparation, 4th Hearing, Status Conference
Conference
Te lephoned c1 er k I Res che duL
tion, sth Hearing Status Conference
Conference re Mediation
Court
sts by RCO
Reviewed 4th PRS Extens J"On
Review Case FiIe, Settlement, Assigned Case
Te lephoned

agt

rtf

rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
T

rf

rtf
rtf
04/oL 15 rtf
04 01 /L5 rtf
04 08/L5 rtf
04/t3/Ls rtf
o4/L4 15 rtf

03/!3/L5
03/ 30 /Ls

Rev f- ewed Moti on To D J- sma s s c oun te rc laim
Te lephoned Court re s tipu 1a tion

t for Production of Documents
re Settlement
Discussion with
nt Draft
Reviewed Settlement
with McHen re Settlement
Corre
to RCO re DiscoverY Extension
Re
with McHenrY re Doc. Changes
Corr
Co rrespondence wJ. th RCO re Mee t and Conf e r
First

rr

e spondence wl- rh
Co
Co rrespondence wi- rh

McHenry and c 1 Le n t

Meet and Confer wi th

and CLient
RCO

re Discovery

from SEC
Hernandez Contact rnfo for Cl ient
Tracki
Conference with C1ient
Te
Co r r€! spondence tf :- th McHen ry re Se t r1 ernen t
sts by RCO
Reviewed 5th PRS Extens ion
Revi ewed New D raf t of Set r1 emen t Agreemen t
with RCO re Meet and Confer
Corre
Conference with Client
Te
st
Revierped RCO Re sponse to Documen t
Cor re s po ndence Y' L th c L aen t f, e s e t tlemen t
re Settlement
ndence with
Corre
re SettLement
ndence with
c
nee with CLient re SettLement
c
nce with McHenrY re Settlement
c
Correspondence wf- th c Ir. en t re Se t t I emen t
Rev iewed Emai L f rom c 1i en t re Se t t 1 emen t
tion of origi-nal note
RCO Emai]- re

Reque st PSA

Reviewed

RCO

Emails from
Trave].
Corre

to

Scheduled Meeti

Dis

RCO

RCO

To InsPect Or

with
2

Mc

re

Note
SettLement

3.55
0.30
3.1s
5.55
0.1s
4

.60

3.95
0.50
3. 90

0.15
2.90
1.00
0.00
0.00
0. 60

0.10
3.10
0.50
o.20
1.10
0.50
1.00
o.20
0.90
0. 90

1.30
0.60
0.10
0.00
2.20
1.00
0 .70
0 .30
0 .30

1.10
0.40
L.20
1 .30

L.20
0.20
0.10
0.s0
a.20
1.10
0.70

a4/27 /L5
a4/21 /Ls

os/w/L5
05/tL/Ls
as/L8 /Ls

os/26/t5
05/27 /Ls
06/01/Ls

06/ot/Ls
06/02/Ls
06/03/Ls

06/05/ts

rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf
rtf

06/L8/7s r!f
05/231L5 rtf
06/23/Ls rtf

06/23/ts rtf
o6/25/Ls rtf
rtf
a7 /2e/t5
a8/L8/Ls rtf
o8/]'8/ts rtf
08/3L/L5 rtf
08/31/Ls rtf
oe/02/Ls rtf
oe/o4/Ls rtf
09 / o4/ ts rtf
oe/oe/Ls

Reviewed Emaii. from C1ient re SettLement
Reviewed EmaiL from Client re Settlement
Reviewed Emails from CJ-ient and gvd
Telephone Conference with CLient

Office Meeting with Cl-ient
Reviewed, Updated PLaintiff Counsel Change
Reviewed Significance Change of CounseL
EmaiL To Speed Up Settlement with McHenry
re SettLement
Telephone with McH
with
Client
Conferenee
TeJ.ephone
Correspondence with McHenry re Settlement
Correspondence with Client re SettLement
Comespondence with McHenry and Client
Correspondence with Mc[Ienry re Settlement
Comespondenee with gvd re Case Status
Corespondenee with CLient re Settlement
Correspondence with Mcllenry re Settlement ___
Corespondence with McHenry re Revisions
Coruespondence with gvd re Final DetaiLs
Review Settlenent, New Draft to Client
Discussion with CLient re Settlement

Reviewed, Suggested Final Changre to Mc[Ienry
Reviewed Case and SettLement Documents
Reviewed Fil-es
Correspondence with CLient
gvd Discussion with rtf Regarding Case Prog'ress
rtf TeJ,ephone with CLient

oe/22/ls
oe/25/ts rtf
oe/2e/Ls rtf
Lo/06/Ls rtf
rtf
LO /L4/L5
LO/Ls/Ls rtf
LO/L7

TeJ.ephone with CLi.ent
TeJ-ephone with Client
Conespondence with McHenry re Settl"ement
Corespondence with McHenry re Settlement
Co*espondence with McHenry re Settlement
Reviewed SettLement Agreement
re SettLeraent
Correspondenee with McH

LL/o6/15
11/06/Ls

with
with
with
Discussions with rtf

t0 /L7 /Ls

rtf

/L5 rtf
to /te/L5 rtf
LO/27 /t5 rtf
t0 /3t/Ls rtf

qvd
gvd

Telephone with
Correspondence
Correspondence
Correspondence

Cl-ient
McHenry
McHenry

re Settlement
re Settlement

CLient
and Fred Arensmeyer

ATTORNEYS

0.90
0 .10

2.50
0 .30

L.20
0. 40

0.00
0.90
0.70
0.40
0.20
a.2a
0.10
0 .80

0.20
1 .30
0 .10
1 .30

2.20
0.s0
o.20

2.to
3.50
0.10
0
1

.30
.00

0.30
0 .30
o .50
0 .50

o.25
o.25
4.00
o.25
o.20
0.25
0

.75

1.75
2 .50

HOT'RS

AIUOUNT

Andrew Goff (ag) ($385/hr)

s7.05

fi2L ,964 .25

Gary Victor Dubin (gvd) ($450/hr)

.25
33. 55

$34,746.25
$15,L42.50

Richard Tucker Forrest (rtf) ($385/hr)
3

90

AI{OI'NT

CLIENT COSTS ADVANCED
TlestJ.aw Compu ter Research
es
Photo
Postagre

$ 1,865.00

Service of Process (tolLe/L2',

$
$
$

Messengers

$

780.00
85.20
38.00
50.00
L2.s7

$

Bureau of ConveYances (o8/oe/Lzl

Amount of Fees Charged Entire Period
Amount of Costs Advanced Entire Period

$ 7L,853.00
$ 2 ,830 .77

Tota1 Charges Entire Period (2OL2-2015)
PLus Hawaii State General Excise Tax
Interest Charged on Unpaid Balances

$ 74,683.77
+ 3,519.10

$

$
Total- Amount Payable for Entire Period
(2/2L/L2)
Minus Payments Made By Client
(20t2-2015)
$
Balance Due for Entire Period

Amount of Partial SettLement
Minus Amount Due Dubin Law Offices
Subtotal Amount Due Client

:
$

Amount Required To Repl.enish Retainer
PIus Amount Due to Dubin Law Offices
Total Amount Due Dubin Law Offices
Amount of PartiaL settlement
Minus Amount Due Dubin Law Offices
EotaL Amount Paid Client (Ll/6/LSI
TOTAI, AIUOUNT DUE:

4

78 ,2O2.87

16,500.00
6L,702.87

L32,000.00
.87
7O ,297 .L3
6L ,7 A2

$

8r0 00 .00
6L ,7 02 .87
69,702.87

$

L32,000.00

$

+

$
$

$ 0.00

o.oo

69 ,7 02
62 ,297

.87
.13

Dubmlaw.net lvlail - Anola-KoDert-l

/ lvvlz-I-r+tz t setutrrncllt

(]()surllslrls

rixBs I ur r

Gary Victor Dubin <gdubin@dubinlaw.net>

Andia-Robert-I t 1CC12-1 -1412 I settlement documents
Ric ha rd Forrester

<

Tue, Oct 6, 2015 at 11:37 AM

rforrester@d u bin law. net>

To: Patricia McHenry <pmchenry@cades.com>
Cl: courtney Spearing'.cspearing@du binlaw.net>, Gary

Du bin <gdubin@dubin law. net>

Pat:

please find attached the signed and notarized agreement with accompanying w9s from
Robert and Carmelita Andia and Gary Dubin'

I

have the original documents in my office. Please let me know if you need them.

Richard T. Forrester
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
tel: (808) 537-2300 ext.200
fax: (808) 523-7733
2015.10.06 completed seftlement agreenments and W-9's (1)'pdf

IE 121lK

https://mail.google.co m/mail/t/0/?ui:2&ik:cf69a962l2&view:pt&q:andia&qs=true&se.

.. rll3al20|6

SETTLEMENT AGREEMENT AND RDLEASE
the date
This Confidential Setlement Agreement and Release ('Agreement") is made and enteted into as of
A.
and
Carmelita
this Agreement is fully executed 1ltre "effe,ctiv_e Date") by C_ounterclaim_Plaintiffs Robert K, Andia
,C'ounterclaim plaintire"); Counterclaim Defendants The Bank of New York Mellon ('BNYM") and
d;iri.;l1g;rively,
grnr Americi, N,A. (.BANA") (oollectively "counterclalm Defendants"); as well as non-parly Bayview.Loan
the
LLC ("tiayvlew"). The bounterclaim Defendants, Counterclaim Plainiiffs and Bayview are collectively

ir

S.*iring,

uParlies,iand each individually is a "Pady."

RECITALS
the best ol
This Agreement is eniered into with reference to lhe following facts and recitals whlch are true to
the Parties' knowledge and belief, and are made partof this Agreement:
Hawai'i
WHEREAS, Counterclaim Plaintiffs reside at realproperty located at7113 Pilaa Place, Honolulu,
96825 (the "ProPertY");

,

promissory note in the
WHEREAS, on or about September 10, 2006, Counterclaim Plaintifis executed a
loan numbered
a
mortgage
with
amoudt oi$1,OOO,O[O.00 in favorof bountrywlde Home Loans, lnc, in conneclion
('Flrst
Loan");
by
the Ptoperty
liiXXXSOgi dUtaineU by Cbunterclaim Plainliffs and secured
promlssory note in
WHEREAS, on or about September 16, 2006, Counterclaim PlainUffs executed a second
loan nunbered
a
mortgage
connection
Loans,
lnc,
in
with
lhe amount of $2gZ,bOO.Og in favor if Gountrywlde Home
('Second
Loan");
the
Property
by
XXXXXSOZS obtained by Counterclalm Plalntiffs and secured

WHEREAS, the First and Second Loans are cotbcfively the'Loans";
Loan;
WHEREAS, BANA is the current servicer of the Finst Loan and Bayview is the subservicer ol the First

WHEREAS, nelther BAI{A nor Bayview are the ssfficerof the Second Loan;
WHEREAS, BANA alleges that Counterclaim Plaintiffs defaulted underthe First Loan;
complaint against Robert K. Andia and
WHEREAS, on or about May 18, 2012, BNYM filed a foreclosure
*Foreclosure
(the
Action");
Cannelita A. Andia, which is cunenfly-being prosecuted by Bayview

a Counterclaim
WHEREAS on or about August 30, 2012, Robert K. Andia and Carmelita A. Andia filed
Group,
lnc. and
Mitigation
American
defendants
against Counterclaim Defendants BNYM and BANA, and thkd-party
Rob Decristofaro (the'Counterclaim");
parties agree that it is in their rnutual interests to avoid the uncertainty and expense of this
WHEREAS, tho
hetein, witttout any
Counterclaim by reaching a sefllement and aepommodation of the certain mattets encompassed
admission of law or fact;
good and
NOW, THEREFORE, in consideration of the mutual covenants contained herein and for other

covenant and agree
valuable consideration, the receipt and su{ficiency of which is hereby acknowledged, the Parties
as follows:

TERMS AND RELEASES
1

SETTLEMEilT PROVISIONS

A.

fot
Agreament Executlon. Within trres (3) business days from the date of request by counsel

of this
Cdunterclaim Defendants, counterclaim Plaintiffs shali execute two original countetpads.
for
ng".r.nt and deliver one odginal counterpad and completed W-9 tax forms to counsel the
Counterclaim Defendants ldentilied below'

B.

payment by BANA. BANA, on behalf of Counterclaim Defendants, shall pay-lhe sum of $132,000 (the
;iiymenR to Counlerclaim plainfiffs wilhln 15 buslness days of lhe latter of lhe following events; (1)
of the Agreemen!
coJnterclatm Defendanb' counsel's receipt of Counterclaim Plainlifr' executed copy
pursuant io Paragraph
W-9
tax
forms
completed
of
receipt
counsel's
Defendants'
oipt Countrrclaim
t.R of tne Setfement Provlsions as set forth above.

C.

payment is in fullsatisfaction of each and every claim in the Counterclairn and it
Full Satisfacfion. The

D.

in conneclion with
includes all aftorneys'feeiand costs that Counterclaim Plaintiffs may have incuned
the Counterclaim and/or Foreclosure Action'

prosecuting tho Foreclosure
Counterctaim plaintiffs' sale of the Property. Bayview will continue
n tion on behalf of gVl{[4. Gonmrenuy, iounierclaim Plainliffs may market the Property for sale and

price.that satisfies the total
will aftempt to complete the sale of the-Property to a third party for a sale
oi ind.btedn.ss dua on the Flrst Loan, prior to the entry of the court's conlirmalion of any
a sale prior
foreclosure sale in the pending Foreclosure Action, lf Counterclaim Plaintiffs consummate
take acton
to the confinnation of ahy tore-closure sale in lhe pending Foreclosure Ac-tlon, Bayviewwjll
shall
Bayview
and
to withdraw rny rofion io c,onfirm the forectosure sale. Counterclaim Defendants
of
total
amount
party
the
sale received over
not seek anO witt not be entjfled to any fees fiom any third
of
this
Section
total indebtedness owed on tha First Loan, as referenced above in the Recitals
lf counterclaim plaintifls fait to sell the Property pdor to the entry of the courtls
Plainliffs warrant
o-nllrmation of any foreclosure sale in the pending Foreclosure Ac'tion, Counterclaim
basis related to
sale
on
any
not coniest the entry of order conlirming the foreclosure
tnri

.r*rt

ngi**.nt,

"i1
Plalnliffs aftempts to secure a private sale, in the concunent Foreclosure Action.
Counterclaim

E. payment

le Considerafion. The Setlement Payment is lhe consideration for this Agreement and the

tems hersin, including but nol limited to the releaise'

F,

Dismlssalwith prejudice, Within 10 business days receiving the Payment,Gounterclaim_Plaintiffs
ih.ll, pur.rrnt to paragraph 1,8., cause lheir counsel to deliver an executed Stlpulation of Dismissal
riitn'f"irOrcr of the bounterclaim, together with any other documents required lo dismiss the
in seotion 2(H) herein.
Counterclaim w1h prejudice to counsslfoiCounterclaim Defendants as identified

G.

payment ls in full satisfaction of each and every claim in the Counterclaim and it
Full Sagsfaction. The
have incurred in conneclion with
includes a1 attomeys' feeiand cosls that Counterclaim Plalntiffs may
the Counterclaim and Foreclosure Action'

H.

o{
Counterclalm ptalnilffs' Release. For consideration of the Payment, the receipt and sufliciency

and each of thek
which are hereby expressty acknowledged, ihe Counterclaim Plaintifft for lhemselves
guarantors,
partners,
coguarantors,
coobligors,
admlnistrators,
ptttrnt and former heirs,'executors,
predecessors,
representatives,
agents,
insurers,
a$omeys,
lrr.tirr, family membsrs, spouses,

Pwe2ofl2

claim through them (colle-ctlvely
successors, assigns and all those who claim through them or could

;n.[*rrif unionditionally and inevocably.remises, waive, satisff, release, acquit, and forever
present, former and future parents,
ffi;*gr druyV, BANA, ind Bayview, and each of lheirsubsidlaries,
dlvisions, departments,

predecessors, successois, assign-s, asslgnees, affiliates,
joint ventures, co'
.
iubdlvisions, owners, partners, prlncipals, truslees, creditors, shareholders,
6td;,';iJ;cr6 and directors.{whether acting in such capaci$ or individually), attomeys, vendors,

ac.ountants, nominees, sub-servicers, agents (alleged, apparenl

or

actual),

representatives,

penon or entity acting or purporling to act for them
employeos, managersr administrators, and/oi each
future person or any entity that held or holdsany
past,
presont
or
any
as
oi6n furrtr'urhalf, as well
Deed of Trust andlor Mortgage related tolhe First
Note,
unoerliing
tn6
interest in the First Loan, and
respectively, from and agalnst any and all past
of
them
eaih
and
Loun i*fi..tiu4y the 'Reteasees'1,
of
unl eietrnt claims, counerchtmi, actions, defenses, aflirmativs defenses, suits, rlghb, causes
or
promises
demands,
and
agreements,
controversies,
losses,
raloi,-f.*ruits, setoffs, costs,
of
iiJiliiitiLiiiirr,'.tever kind or character, direct or indhect, whether known or unknown ot capable
by
equlty'
or
ln
at
law
arising
futurs,
ln
lhe
exlstencs
lnto
come
lo
whelher existing now or
5,hJ
righiri 6t;,n or og1enfl'lsel including, but, not limited to, sults, debts, accounts, bllls, damages'
claims and demands
lu"doments. executions, warnanties, admeys' fees, costs of liligation, expenses,
'*rtuttotvtt that the Releasors, or lheir attomeys' agenb' representatives' predecessotlt' su6t0ss0ls
or byreason of any matter, causs ol
and asslgns, havs or may have against the Rele.asees, for, Upon,
clalms made or whlch could have
the
limltaton,
witrout
til;gfth;over, in law or equlf, lncludlng,
or serviclng of ths Flnst Loan (in
origination
the
from
arislng
by the countentriio iirtntire

ilil,

uern'maoe

of
fu *rfras in any way related to the underlying proPeilI:Notes, Mortgage and/or p9$s
was
which
or
issue
claim
any
as
as
well
thereon
omission
ror me rirst Loan, any lerviting act or
ir,jri'f3|';;D

;;i

oicorfO fr.ue been broughiin the Litigation (collectively'Released Matters").
t,

part of the conslderation to
Conltdentiallg and Nottces. As a material inducement and an indivisible
Agreement, ths. Parlies
to
enter,.into-this
Bayview
and
Defendants
n, ,,e6ivro by ttre counterclaim

any discovery
ugnr fhrt it is appropriaie to maintaln fre allegatlons made ]n the Counterclalm,
and the
ot
lhis
Agreemenl
thg
Agreemenl,
thii
;;i;rgrd ort*r,jri thbm h the Counterclaim,
lttTq

a oofng fgnqrd basis as
settrem6nt provlded for hereln (collecflvely the 'lnformation") as confidentialon
and treir attomeys will
that
they
agree
Parties
tro
end,
ihat
lowaro
oiln. ort. of thls Agreefint.
publicize, dissemlnate
publish,
or
indlrectly
or
dlrec,ily
person
entity
or
neither disctose nor reveatto any
entjty the lnformation on a go fonrard basis as of the date of this

oi communicate to any froon ii
eg";rr*i,'lrrluding 6ui not llmited toa
oJrtino

*

fi;;ii;fi1g

pmhibltion on the Countsrclaim Plainilffs and theh attomoy
outlet
onerwiseiiscloslng lnformatlon on the lntemet or any olher paper or electronic media
MySplce'
Facebook,
email,
or
newspapers,.
websites
organizatons
uui noi rrr11.o to niws
permitted Jisctolulg o{ lnformallon bereunder is to the persons or entltios

i*Nri ,rr,i.

The only

specifically idenlified in subparagraphs (i)'(ix) below'

i)
"

terms and condltions of this
The parties may provide a copy of this Agreement and/or describe lhe
jurisdiction only in
of
competent
court
States
i_United
belore
tawgiii
ngreemant witfiin rny
iripontr to a Court order to that effect. The Parties furlher agree lhat, to the extent lhey or lheh
;-tffi;F iecetve legal process designe_d to dlsclose any lnformalion deemed conlidential under
party-will provide advance written notice to counsel for the nontni, ngir.pnt, the-disclosing
of this Agreement) within three (3) business days of receiving
Jiu.foJing irrty (r4 section
legal prbcess, so that the non.disclosing Party has the option
other
or
such sub-poenj, court order
ot ttrf ngreement, ils terms or any lnformation deemed
protec,t
conlidentl-tity
lhe
of taking iteps to
conlidential under lhis Agreement;

lnl

Page

r of 12

:ti)

financial advisors, accountants,
The parties' rospective officers, dlrectors, employees, attorneys.,
access to lnformation of this
have
insurers, auoitorl,lno omer protesslonal advlsbrs who regularly
consult regarding any
t'pu in orOer to-pertorm their duties, and/or with whom lhe Parlles, may
to maintain this
agree
first
entitles
;Jfui of this Ainrrrni provided that such persons or

eg';.*.nt, ne bims oithis Agreemont

and the settlement provided for hereln as conffdentlal;

iii)

governmental authority, includlng but not
Any Federal, state or other regulatory agency or body or
C-ommission ('SEg') or the Oflice of the
limited to tfre UniteJ btates Securlties and'Exchange
of this type' or
Corpmfpr of the Cunency to whlch ths Parties are required to report lnformation
agency
or body or
regulatory
by such
when such discloswe is specilically requested or demanded
governrnental authority;

iv)

descdbe lhe terms and conditions of this
The parties may provide a copy.of lhis Agreement and/or
respec,t lo lhe Fint Loan, and any lruslee,
Agreement to u-ny inuestor, srwimr or"ub-servlcer with
or ass'lgns) identilled ln the Notes, Security
beneficlary or n,irinm-tln.trOing lheir-successons
pertalnlng to the Loan, provlded that sy9.h peBons or
lnstrumenb ot .ni assignment thereof
lhls Agreoment, and the settlement
entities first agree'to ma'lntaln this Agreement, the lerms of

,

provided for herein as confidential;

v)

perlaining to any Released
ln the event any Releasee (as delined herein) ls named ln an.action
and/or descdbe the
Agreemenl
of
thls
r'ruttg im ounn"u r,rreint, tiie Parlies.may groyldg a copy
against any
purpose
of
defendlng
for
the
terms aild conoitions of ttiii egnrm.nt to said Releasee

provided for in this Agteement, and said Releasee may
claims that 6y b. subject to ihe Release
defend against such claims'
disclose so muclrof this Agreement as may be necessary to

vil
-'' lf reouhed by lhe SEC to be lncluded in public filings (such as, for example, in annual reports filed
on

firm

10-k orquarterly reports filed on form 10'Q);

Unlted States lntemal
vii) Federal, slate and local taxing authotities (such as, for example, the
docurnents' and/or in
reporting
other
tax
or
returns
Revenue Servirei, .r n.."rirry in tax
response to an audit or slmilar inquiry;
section
viii)
- countorclaim plaintiffs may disclose lhe. malerlals lerms of the Agreement, as outlined in

'

ix)
'

(Diof

and/or
this Agreement, bui may not disclose lhe Agreement itself;

A Court of competent judsdlction to en{orce this Agreement
sucft proceedlni to be liled under seal lf possible)'

and/or maintain its confldenliality {any

Plaintifls and their counsel will not, directly or indirectly, make any
J. NoN-DtspARAGEMElr. Counterclaim
-rtutemJnts
agalnst Counterclaim Defendants and Bayview mallgnlng,

;6;il;

or

oisparaging

";i'itrr*irr

speaking ill of Counterclalm Defendants and Bayview, and lheir
ridlculing, oetamlng,
reputation {including but nol llmited to slatements
buslness anairs, pradices-oi pon.ird, stand'ards, or
or
h,*'turio-ne ciunterciaim Defendants and Bayvied business interests, reputation
the
to
intemol
;ny rorm 11nrrruhg but not llmlted to orally, in writing, on social media,
to persons and
i'roL, pi,"rnr .no'rnti'des rngrgrd in radio, televislon or tntemet broadcasling, orlhat
relate to this
gather ori.po* lnioirition on trade and business practices or reliability)

il;;ti;g;

ilJ;iliii,
entiges that

Aiermrnt,

intormaUon

matter coverea ov rire

[.i

or any
OrnnrO above) and the factual altegations made in {he Counterclaim
be
however,
*itnin this Agreement. Nothlng in the Agreement shall,

il[rt.

Pase4

ofl2

transactions with appropriate govemmental,
deemed to interfere with each party's obligation to report
taxing and/or registering agencies'

K.

separale continuing contractual and/or
Excluded Ctalms: This Agreement does not apply to any
nu}, exist betwien or amonglhe Partles, includlng, for example,
equltable obligations as-rr:v

*n

Plainlffs, credit cards held by counterclaim
existing loans enrumbi'dig dthr fup.rty of counterclaim
plaintiffs or any otheftnfing ."iitbrrd or investment relationship with the Gounterclaim Defendants
its afliliated entities'
oi g.vulr*, inctuoing but notlimited to Bank of Ameriea, N.A and/or

2,

AODMOMLTERMS

A.

connectlon with lhis Agreement is fair'
Adequate considenilon. The consideration received in

;drq;i.

Agreemenl.
and substantial and consists only of the terms set forlh in this

claims to be made ln any court
Not to sue. The Counterclaim Plaintiffs agree not io cause
the smpe of the releases conbined herein.
or other forum against rhe Releasees for any matter wlthin

B. Covenant

c. Further Assurances. Each party agrees to lake all reasonable steps necessary to effectuate the
terms of this Agreement.

D.

and agrees that this Agreement and the
No Admlsslon of Llability, Each of the Parties understands
clatms and defenses, to avold
dlsputed
lntended to compromise
sstlement pmvloed 6i tt!"in,
provided for herein shall not be
setloment
nat sris Agreement and lhe
lltigation and to buy pr..r,
rorfsron bi any Party of liability_or.wrolgdolng, such llability being
conslrued or viewej
proviled for herein, shall not be admissible in
expressly denied. Iti. ngrdrnt .no ttre,serueme'irt
judlcial
or adniinistralive proceedlng.lf offered lo show,
,oriniri"tiu"r .r[on,'or any
sdprrt ; contentibn lhat any of the Parties acted illegally, impropeily, or in
demonstrale, evioenc;
breach of law, contract or ploper conduct'

;in

;;i'ffir[,

.ri

r*

;

to damand from Counterclaim Defendants and Bayview
a walver of Counterclaim
performance of any act under the Agreement shall not be construed as
failure of Counterclaim
performance,
The
such
llme,
F[ir,imJ ,igt't to o'emano, at any sui'sequent
performance
of any act under the
Plaintiffs
Defendants ano aayv'lew io ueni'uno from counterclaim
Bayviews right to
and
Defendanls
counterclaim
Ad;r;ra shall noi bs construed as a waiver of

E. Waiver. The fallure of Gounterclaim plaintiffs

dimand, at any subsequent time, such performance'

F.

if it is later determined by tho lntenal
Ta:r consequences. The Counterclalm Plalnliffs agree that
should have been paid in connection
of
any
type
taxes
that
Revenue Service oi*V oinrr i.ring body
be solely responslble for paying such
theywill
with any benefit theyie;.i*
;unua;t to t'his.Agreement,
-0;6ij;;l;
or warranties regarding the
no
representations
make
;no nayvieil
taxes. counterclatm
reporling by Counterclaim
or
such
liling
any
of
or
legal efiect or tu, ronsrq;;;ilrithis.Agreement,
neither
ptatntitfs
acknowtedge_that.they
expressly
further
Defendants o, nuyuir*.-ine Counterctaim
or
lhek
Bayvlew
Defendants,
counteiclaim
lhe
from
tax advice
recelved nor retieo''uion

"ny

representalives and attorneYs'

G.

with and all disputes hereunder
Ghoice of LaW. ThiS Agreement shall be construed in accordance
choice of law rules.
Hawaii's
to
regard
Hawaiiwithout
of
shall be conkolled oiirie'laws otthe state

H,

parfles, Counsel. As used in this Agreement, the phrase 'Counterclaim Plalntiffs' Counsel" means
buite 3100, 55 Merchant St', Honolulu, Hl 96B13
Gary Victor puOin, ouiin f-aw Offices,iarbor iourl,
Pago 5 of

12

partners, shareholders,
and any and all of his curyent and former owners, predecessors, successors,
Plaintiffs'Counsel
agentsiaffeged or urtu.q, represontatlv-es, employee_s. and-afliliates. Counterclaim

ptaintiits' Gounsel," as dolined above, includes all
warrants itrat ine term "counterlbim
p,iron, (natural or legal) and entities having any interest in any award of attorneys' fees_or litigation
l;'Counterclairi plaintiffs' counsel in connection wi$ the Counterclaim and/or Foreclosure
A;1;r, As used ln lnis ng;emenl the phrase "Counterclaini Defendants'counsel" means Patricia J'
Cades Schutte [t1:, lOOO Bishop St,, Suite 1200, Honolulu, Hl 96813'

*p"rri,t

a-nd

;;.6

M.irnry,

l.

within this Agreement are for
No lnterpretafion of Capfions or Headings. The caplions and headings
meaning or to.modiff the terms
ease of reference onty and are not intended to create any substanlive
either following them or contained in any olher provision of this Agreement'
rnO

6.rt6

or lhe application thereof is held invalid by a court,
J. Severability. lf any provision of the Agreemenl
jurisdiction, the.Parties agree that such a determination
arbitraior or

ofl*ilioity

gourrni.'Jni.g.n.y of comietont

jnan not anect-other provislons or ippllcatioru of the Agreement which oan be given effect

effect or application.
winout tfrd invalld provislons and thus shall remain ln fullforce and

K.

cooperated in the
Neutrat lnterpretaHon and Gounterparts. The Parties shall be deemed to have
of
this Agreemenl
to be made
Orafting and ireparation of this Agreemenl, Hence, any construction
in counterparts and each
shall not be construed agalnit any-Party, This Agreement may be.executed
emailed, or elechonlc slgnatures
executed counterpart sliall be efective as the original. All faxed,
affirming this Agreement constitute an orlginal slgnature'

L.

I Slngle Agreement. Thls Agreement constitutes a single, integrated, written contract
the
iiii,'ir.6g ne eitire inderstanding and. agregment_between lhe Parties, and the terms oforal,
lntegraflon

written or
and the
partles
Agreement
of
this
mafrer
with rospect to the subject
lipr.rrro or implnd Gtween lhe
contained
expressly
not
Frhp, declare ino repieienl lhat no promise, inducement or olher agreement
any beneflt uponlhem oI upon which they have relied in
i,,, l.,lrtgrdent has-ueen made c-onfening
prior
conditions of this Agreement may not be conlradlcted by evldence of any
ilre terms anO
,nV
'rg*ement,
judlcial
any
in
be
introduced
may
no exlrinslc evidence

Rlreemerit

or

.n *nti"'tu*

"w.
contempooneour

rnJ notherely rlcitals. There is no other agreement,

and

business
proceeOing to interpiet frb Agnr*rnt. .This pmvision does not apply either to any glhq
subJect
the
lo
not
related
account)
or
bank
card, investnent
,.tutionr b-etween the Farties (r.g,,
"credit
matter of the release with ihis Agreement,

M.

amended or modified by oral
Amendments to the Agreement. This Agreement shall not be altered,
or changes of any
amendments
All
Agreement.
iuprornt tion made befire or after lhe exeiulion of this
kind must be in wilting, executed by all Parties'

N.

Counterclaim Plaintiffs
Negogagons All negotialions have been conducted in English. ff n9c9sg9ry,
to Counterclaim
choice
Plaintiffs'
counterclaim
of
translalor
have had Us oocufienl transtateo by a
Plaintiffs
that
Counterclaim
warran$
that
and
represent
plaintiffs' satisfacflon. Counterclaim Plaintiffs
signing below counterclaim Plaintiffs
have had altterms explained to Counterclaim Plaintiffs and that by
fully understand and agree to them.

they have not sold, transferred,
o. Authorlty. counterclaim plaintiffs represent and warranty that
interest ln any of the Released Maters

asslgned, or othenvise Oispoi4 of any dght, title or
are not awars of any othar person or
herein to any person or entig, and tirat Counterclaim Plaintiffs
or interest in any of the Roleased
assert
a
title,
righl
or
can
entity who ,ry haue or wno nas asserted

.nuriri,

Pogo 6

ofl2

Plalntiffs further affirm that they are fully capable of
Matters covered by this Agreemenl counterclaim
and furlher that they have legal counsel of their
contenb
executing this Agreement"and undersland its
such legal counsel to explain lhe legal effect
obtaln
lo
own choice or that tiiri r,ruu had an opportunlty
of slgning this Agreement.

p.

party to this Agreement acknowledges that it has had the benelit
Advice of counset. Each

of advice

wilh respect to lts decislon lo enter
regal counseiorthb opportunlty to retain such counssl
.t
this Agreement in a personal or
ar{xe!
slgnatures
gfe
into thls Agreement,- itre inoivioudti whose
!o
lnto
this
Agreement and are doing so
to
enter
iompetent
representative ,rpu.ity irfient that they are
hereto.
non-party
ireety anO withoui coercion by any other Party or

*rp.t *

0.

heirs,.succ€ssors, and
successora, This Agreement shall inure to the benefit of the respective
p;rfis;,;nd ;actr ano €very one of lhe Releasees shall be deemed to be intended lhird'

]fiil;iih.

pany beneficiades of this Agreement'
Nole and
Unless otherwise expressly qel fo$.hercln,.or as authofized by the
costs,
fees,
attorney's
own
lts
bear
s'trall
Parties
the
of
each
i,,rnrg;d,/orro or rrust ror G First Loan,

R. Attomeys'Fees,

tre matters set forth in fre Agreement, lncludlng, but not llmlled to' the
and preparalion of thls Agrcemenl'
Counterclaim anorci Foreclosure Actlon and the negotialions
of this Agroemenl or any
enforcemont
the
party
over
procredlngs
institutes legal
lro*urr, if any

.ni Eiirn."t

in connection wlffr

including
Farty s-nan ne entitled to racover fiom the losing Party its costs,
levels.
appellate
and
ilnsonable atiorneys' fees, Lt bolh tre trial

i,,iuirlon'or [, th.

s.

parties knowingly, voluntarily and intenflonally waive the dght they may
Walver of Trtal by Jury. The
herson, or arlsing out of, under or.in connectlon
have lo a tdal by Jurllii*p*itr any lltigation based
executed, or any underlying matler, course of
to
be
wlth thls Agreemenl ,ny Jirurcnt contehplated

;;;1fi9;-firment

T.

p"'u;ilil

or acgon of the Padies,
lwnelrer verbal or witten]

and agree that thls Agreement shall not'
Other Accounts/ Future Events, The Parties understand
prohibit Counterclaim Defendants or Bayvlew (or any olher
under any ctrcumstances, be deemed to
any actons with reel{ to any other moilgage, credit or
take
to
rirtityl
"intinulng puinutrr fom counterclaim Defendants or Bayview, lncluding but
account obtained
'rrtiont ur acceteration and foreclosuro as may be apqrgpnato- in lhe event of a
not limited to such
obtained by counterclaim Plalntiffs from counterclaim
future default on any other mortgage or credit
Defendants or BaYview.

*i,;;

nrr

d"c;iil;l,;

parties hereto evidence their agreement as a sealed instrument and have executed
lN WTNESS WHEREOF, the

thit Agtte*tnt as of the day and year first below written'

Pceel

ofl1

Gounterclalm Plalntiff Robert K. Andia
Dated:

/-

,- / o€ {r{

ftal.lv

day of
Robert K. Andia, known to
the within instrument, and

ws

ln witness hereof,

I

,/
Wrgrrrl?.=.
FlntClrcult

Ooc.
Ctntir'

l{otrrt
Ds.

PU&rq
Date

PageS

ofl2

Counterclalm

A. Andia
Dated:

/-

lo

/r/,<

2rrK

,il

Ooc.

Clrcult

lloirry

Pageg

of12

Counterclalm Defendant Bank of America, N.A.

Dated:

By:

0n this, the

day

of

I

before

2015,

'"ND

me

,.TITLE

a

notary

public,

DGOUTING

OF
NA[ffi
who proved to me on the basis of satisfactory evidence to
to me that
whose name(s) is/are subscribed to the withln instrument and acknowledged
be the
by
his/her/theh
executed lhe same in hislher/their authorized capacity(les), and that
behalf of which lhe person(s) acted,
signature(s) on the inskument the person(s), or the entity upon
pfNAtry
0F PERJURY under the laws of the State of Calilornia
executed the instrument. I certlff u nler
that the foregoing paragraph is true and corect,

INSEnT

Notary Publlc
My Commission

Pago r0

of12

Eglfts:-

Counterclalm Delendant The Bank of New York Mellon

Dated:

On this, the

day of

---#.-

2015,.-before-.

me

I

no!iy--!.*li9

Jff",.il;[..,ffi#,,1]fi
boii;;'edtothewlthlnlnstrumentandacknowledgedtomethat
?{ 111tt by his/he/thek
f'.linrii"V el6cumo ne sdme ln his/herltheir authorized capacity(les),
entity upon behalf of which the person(s) acted,

ttre qer1l(1!,. or the
on il.. rnsdumeni
-i
unler pENAI-ry oF PERJURY under the laws of the state of califomia
r.rtiry
inshumont.
the
executed
that tho foregoing paragraph is lrue and conect'

;iiltr;;d)

Notary Public
My Commission

Page 11

of12

Bayvlew Loan Serviclng, LLC

Dated:
By:

On thls,

the

day

of

-

,

2015,

-

before-.

me 9-

no!Iy-- Pllfig

'ff"'i}3,*'TJ!i";3[.",ffi0'J;l]ff

be the pe[on(s) whose name(s) ls/are subscribed to the within instrument and acknowledged to me that

he/she/ihey executed the same in hls/lrer/theh authorized capacity(ies), and that by his/he/thek
signature(i) on the inslrument the person(s), or the entity upon behalf of whlch lhe petson(s) acted,
eiecutedilie inskument. lcertify under PENALW OF PERJURY underthe laws of the State of California
that the foregoing paragraph is true and corect.

Notary Public
My Commission

PageT2otl2

EXHIBIT 2

Qlve Form to the
requester. Do not
send to the IBS'

Request for TaxPaYer
ldentiflcation Number and Certificatlon

,"* llU-9
(Rov, Daosmbst 2014)
DoDortmsil ol tho TtG,tY

lhtirfal BwsruoSatlo

nol

on

lax

on your

Roben Klng Andla
c.i

narno,

2

d)

ol
(!
(:.

c
o

n

E

[Brruu*wou
-

Bholo.tr€mbilt.LG

eo u Lknllod llabfity .c9arPotlr'
"8
Ft

Ent6r lhe tax clololllodl0n (o-c corDddlon, S.8 oorporallon,

Tn sttosblo

Exempl payeo codo

P-portnetBhlP)

do not choc& u.c; chock iho approptlato box
t{ob. ForastEl}motnb{ LLC thd b dtroOoo'od,
qvlrrot
iho hr( G*idCllclllon oI lho !lnglo.tnstnbBr

oc
;'d

Ex€mDtlotl8 {codos IPPV only to
oorrah dntllhs.'nol hdlvkh8lli 8€o
lnstrucilono on pago 3l

a

c*reck onlY ono of lholollowlng sovofl boxasl
3 Check approprlal€ box loa federal iax classlllcatlon;
Pann"rsntP
$Cqrpsdlm
o Cotpgsrlon
proPrlslor ot

lho llno abovo lot

(i1 any)

Exomptlon trom FATCA roPorllng

codo (if any)

(4{,tuto,@bn

-

Jnblndottl./da UF U,g.t

oftor

o.q

ond ept ot

IE

t

Pllaa Plaoe
CL
o
slrtq
o
ad) Honolulu Hawall 06825
'13

account

Part

I

or

Part ll
Under penaltles of pe{ury, I oertlry lhat
(or I am waiting for a number to bs lssu€d to me); and
'1. Th€ numb€r shown on thls fom 13 my corroct to(pay€r ldentlllcatlon number
wlthholdlno. or (bl I havo not been notlflod by lho lntomal Rovonuo
lrom
backup
I am oxsmpt
that I am
2, I am not subJoct lo backup wlihholdlng because: {p
orl inii,te"i 6r dkldends, or (c) the IHS has notlllad ms
to.
tuport
falluro
a
of
b"rrdohCsf itr"t I am subJoct to backup wllhholdlng a8 s rssult
t to backuP wlthholdlng; and

"ojongdi"ubJt

fiom FATGA reportlng ls conect.
notlfied bv the IRS that you arg cur€ntly

sub.lect to baokup wllhholdlng
For real estate ttansacUbns, ll€m 2 does not apply. For mortgEge
io an tndvtoual relkement aningement{FA)' and
slin-ih" il.tmCiilon, but you must provlde your conect nN' seo lhe

;;;i6;iibAbns

Here

Slgnaiut€ ot

D6to

u3.

General lnstructions

(studon! loan lnterest)'

1

098-T

(tultion)

unlFa ouhErwl8o nolo"'
Secllofl ,olorotlcos ato lo ttro lntomal Rdvonuo cods

FutUrcdovoloD'nonB'lnlo'millonabotnd$otopnrentro'.locJnoFomw-0(such
q b ilwvfi't'w'gwwv'
oc togtolollofl ohof,{od allr wo l0l6so

. Form lo99,O {canooled dBbt)
. Form 1099-4 (acqulsltlon or abandonment ol secured proporty)
allen)' lo
Usg Form W-9 only l{you Ito a U.S' porson {lncludlng a resldent
provldo your conoct TlN.

Purpose ol Form
wno.b

flo.dn Homdtloo

whlch
on

rtt lntorftalbn roluttt &!mplo!ot

lrnllpd !o. lhotollowLEr
Form 1099{NT (lntotest €msd ot peid)
or mutual {unds)
Form 1099-DlV (dlvldonds. lncludlnglioss lrom sloclc
. Form 1099-MISC (vatlous t"pes of lncome, prlzes, awards, ot gross proco€ds)
r Form 1099-8 (stock ot muluEl fund sal6s and oortaln othst tansactlons by
brokers)
. Form 1 099-s (proca€ds lrom real qstato tansactlons)

.
.

. Fotm

>

. Form 1b98 (homo mortgago lntoresl), logB'E

tl vou do not ohtn Folrn W'g lo t!rc E'o,){!;l$t tvlh a nN, you mlght
to&ck4rwillthotdng 8oo Wftal rsbtokt/p wWthol&A? onPagez'

bo sublocl

By slgnlng lhe fillod'out tom. youi
1. cedlty that tho TIN you oro olvlng ls cotrsct (or you ars waltlng lol a numbol
1o bs lssued),
2, Ca1[ lhat you ero not subioct to backup wilhholdlng, or
ll
& Chlm oxsnDuon ftotn bscklp wllhlaukE [ ]otl oro 5 U.s. Exonpl psye€'
ooonc$n. votr'drir atso cotltlylng that 6! I U.S, porton, yo(l' allo@Dlo mErD or
to tho
#iht; hc6ms tmm b uls, uoao or hnhess lr iol subiodlnoa'no'
ond
i,;;]d;-&'td;;;ho'' ol dtodh,ov aormsorad
y99-8to
4. C6dlfu lhst FATCA coOo{c) ontorod on lhlo lorm (lt ory) lndcaths
Nt
tiro fefCn ropoiiing, tr conocl. Seo lvlal is FATC'A
'W;orlw
"r"mpiinin
paoo 2 lor further lnfornollon

;i;;rt
;fi'fiilt; d[;

qf

lsacuons)
lO99-K (merchanl card and lhkd pany nstwork lra
CaL No.10231X

Form

W-9fiev.

12-2014)

,.--

Give Form to tho
r€quester. Do not
send to the IRS.

Request for TaxPaYer
ldentification Number and Gertificatlon

llU-9

{Fo\,. Doc€tnbgr2014)
Doo:ulrngll ol0to liong|Iy

htiinol Rffirllo Sdvloo

on

nol

&7
n8mo,

<rl

o
tD
(t

(I
c

of the followlng soven boxes:
bor lor foderal lax classmcallon; ohook onlY
ParlnsGhip
Gorpotatlon
s
Corpolailon
a
ol

3

A

tr Umtlod lhblllty company.

b
b

Enlo? the ia,( ologslflcatlon

H?SIffi fgt#Sffi .'':3,p#s#iff#'

'tr

o. o

o

E
at>

any)-

above tor
do not check LLC; check the approFlEto box ln the llno

Exomptlon Lom FATCA roportlng
code (lf any)

t-us)

(4p6.tb

pz-

u4t-c.r

Hf

o
6t

at,

(c-c

tr

corporatlon. S-S cor?oratlon, P=psnnerihlp)

t-tu4

or sulle

IE

Part

tr

n

o

o

Exodtotlons {codso ippt ollly to
cortnkr tirilhlss,-nol lndlildtrsls: eoo
lnstrucrlons on Pago 3);
B(€mpl payeo codo (lf

4
TnJst/es1316

I

or

Part ll
Under penalllee

ol p€dury, I c€dry ihab

ldontlficallonnumber(orlamwsltlngforanumbertobslssuodtoms);and
1. Thonumb€r shown on lhls form ls my correct taxpayer
ngilned bv the lnlomBl Rwonuo
(a) I em sxernpt from bodop wllhholdlng' or (b) I lisv8 nolbeen
becauso:
wlthholdlng
ihst I am
2. I am nolgubtsct to backrrp
of a lalue lo rbport oll lnl{ost or OtvtOenOs, or (c) the IBS itae noU8od mo
raauit
ar
a
wlthholdlns
to
backup
bi'"irijJ nCsf urat I am au6iect
and
wllhholdlng;
no'rongel-;,ttect to bock;p
Itom FATCA ropodlng ls cot?ect'
notlfiod bv tho IRS that you are cuttsntly arbrect to backup wllhholdlng
gpply. For modgago
For reat eitato hansacllbns, ttom 2 doos nol
jn rnlvroual ratlromonl andnsemont (lne)' and
Jbn'idl;";fl.rtlon, but you must provldo your oonool TIN' seo tho

ffii;iliilhnsio

Slgnature ol
UJS, porson >

Here

Dat'>

General lnstructions

unless olhotwlss notgd'
S€cllon tolgrgno6 ato iotlho lnlmal RovonuB Cods
lhlr4altm obod datolopmont! sllwtlns Form w'9 {such
otoesa tt) te at rvrn'kgswfivrut'

;;;

;;;nu

H6-btlffi;ffiil

"ffwb

Purfose ot Form

wtro ls

r Form 1 099-lNT (lnt€rest samod ot pald)

or muiual fun&)
Form ''l099-DlV (dlvldonda. lnr'luding lhoso lrom EloclB
ol gross Proc€eds)
prlees'
awatde'
of
lnc€ms,
loug
t)rp98
Fonn 1099-MISC {\iE
by
(stook ot mutual fund setes 3nd cortsln other tt0nsactlons

. Fom

allsn)' to
Uee Form W-9 only lf you are a U.S, person (lnoludlng a rosldont
provldo yout conectTIN'
It tfltt do nol ftUm Fonn W'g lo'lhd no.t tlotwlh a TtN, you nlgh' be sublect
n &ok9 wilhnouhs 600 Mat ,s &cbp wlthhotcilw? on paga z'
By slonlng lho flllsd-outlorm' yotli

whloh

.
.

. Form 1098 (homo mongage lnlerost), 1098-E (studont loan lnt€rost)' 1090'T
(tultlon)
. Form 1009-C (canc€led debr)
. Fom 1099-A (acqulshlon or obq'ldonme{t ot securod propetty)

1099.8

brokero)

lor a number
1. Certlv thd $o TIN you are glvlng ls conect (or you at€ walllng
to bo lssued),
or
2, Cartfy thst you aro not subjecl to backup wnhholdlng,
peyso' ll
3. Ohh oxFrDlbn l'orn bsEkup wilhtnlrllog ll yor om a U'& exompl
ffiiirLi dJrrrvr'sih;ii; o u.S' riruon' yotrr B!oc86lo6hgro ol

;lffi;;fr

trffiT*#'a;iffi ili;}S*fr **ffif##Y"Ts:,-,
lom (f
lhal FATCA code(g) srtorod on lhlE

4. Corllfr,
*;;i'i;iHffii;ft
fi;ii"o,
pogoA tor twfier hlormsllon.

ts

8I'Tyt

hdh8dng 0!9t y-otr ots

co"crr. sm wai't ts-FatEenp.tltsz otr

o Form 10g9-S (proseods Itom toal oslsts itan6actlons)

.

kansac'ilonst
Form 1 099-K (merchant cstd and ihhd patty notwork
Cat. No, 1023'lX

Fonn

W-9

{Bsv. 12-2014}

Form

w-g

(Fev. Decamb€r2014)
DoDarlmonl ot lho Tmasury
lntirnat Fovenue Servlce

on your

nol leovo

on

l8x
diflarent

Eudnoss

AI

Glve Form to the
requester. Do not
send to the lRS.

Request for TaxPaYer
ldentification Number and Gertification

sbovo

o

ct)

{!

o- 3 Chock appropdato box for federal tax classlflcatlon; check only on6 of the followlng
c

o

!

ots

EE
4.9

4

u

TrusVostate
Parlnershlp
Gorporallon
c Corporallon
PtoPrlotor o,
slnglo-mernber LLC
s=S cotporatlonl P*p6ilnershlp)
Umitsd llablllty corrpany. Enter lhe tax classlllcatlon (c=c corporallon,
LLG;
chock ths approprlato box ln the llns abovs lor
check
not
do
dlsrogstdod,
LLC
lhst
ls
Nols. For a slngllmambor
tho tb,x clacslllchdon of tho slngle.member owno..

@ lndlvldual/sole

e6
"P
.E n

n

uI

3AV0n boxos:

Olher

Exempt payea oode

fl

anY)-

Exomptlon from FATCA toportlng
code {f any)
.^pp,i'r to

ucwlt r$n

tud qbldc tb U'sJ

name

or sulte

o

Exrrnptlons lcodog oPdY oDlY to
cenain dnuths.'nol ln&lduahi sos
lnstruollons on page 3):

o

o

U'

code

6J

dt

U)

6ccount

Part

I

1 and the chart on page 4 for
Note, lf the aocount ls tn more than ono name' seo lhs lnstructions for llne
guldollnes on whose number to enler.

Part ll
penalUes of peijury, I cortlfY lhat:
(or I am waltlng for a numbor to be lssued to me); and
on lhls form ls my oonecl taxpayer ldentllicatlon number
lrom backuP wlthholdlng, or (b) I havo nol been notlfled by the lnlemal Rovenue
2. I am not subloot lo backup wlthholdlng beoause: (a) I om exempt
l'am
a falluro to report atl lritiresi 6r dMaends, or (o) the IRS has notlfled mo lhat
ol
as
I
rosult
wlthholdlng
backup
to

't. The number shown

Servlco 0RSithat lam srbject
no longer sublect to baokup withholdlng; and

3. I am a U.$. clllzen or other U.S. person (deflned below); and
4. The FATCA code(s) enlored on thls form

(f any) lndioatlng that I am exempl from FATCA reportlng ls conoct'

been notlfled by the IRS that you are cutronlly subJect lo backup wlthholdlng
Gertlllcatlon lnstruotlons' You must crgss out item 2 abovo lf you havo
eitete lransactlons, ltern 2 does not apply, For mortgage
yau
to rePort all lnlerost and dlvldends on your tax roturn. For real

have falled
becauso
cancellatlon of debi, contrlbutlons to an lndivldual rellrement anangemenl (lBA)' and
lnlerest pald, acqulsltion or abandonmenl of s€curod proPertY'
requlred to sign ihe certlflcatlon, but you musl provlde your oonoct TlN. Soo lhe
you
not
aro
dlvldends,
and
othor than lntorest
3.
Slgnaturo ol

Data>

u,s,

notod'
Sectlon rot€ronoos are to lhe lntsmal Flevenue Codo unloss oth€dlso
Fututo dovolopmonlr. lnformallon abo--ut devolopmonts ollocling Form W'9 {such
as loglslailon ehsclod atler ri/o reloaso lt) le at www.lrs'govl'w9'

Purpose of Form
An lndhldual or enllty form W'9 r€quester) who le ro-qulrod lo llle an lnlomatjon
liirim wrU rtri rpS niuit otrarn ioui ooni6 1'<p"yet idanltflcslbn number fnq
iirri,ieEcu,fr nuniutrl'-6sru)' l?tdbldyg.ttrxpovor ldenlillcauon
nrr-uor fhto. iaor0on lalosveildonUtlcatlon numborOTll'0r9r stnplolPr , . .
ldontlnodrlon'jrum6or (ElN),ioisporl on on lnlormauon tolum tho eno!ilf"]o-.i:vou. or other amounl ioOortablo on an lntormalion rolurn, Examples ol Intotmauon
istuins lnclude, bul are hot llmlted to, lho lollowlng:
. Form '1099-lNT (nterosl eanad or pald)
. Form 109g-DlV (dtvldonds, lncludlng those lrom stoctts or mutual (unds)
. Form 1099-MlsC (varlous typos of incomo, prlzss, awardg, or gross proceods)

'Form109s.B(stockormutuallundealesandcertalnolhoriransacllonsby

brokors)

.
.

Form 1099-S {proceeds from real ostate transacllons)
Form 1 099.K (merohanl oard and lhlrd psdy notwork transaotlons)

r

. Form 1 098 (homo morlgagg lnleresl), 1098-E (student loan lntereat), 1098'T
(tultlon)

General lnstructions

;il ffi ;;i*t

L

.

.

Form 1099-C (canoelad debl)
Form 1099"4 (acqulslllon or abandonm€ni of gscured property)

Use Form W-O only it you are a U.8' porson (lncludlng a resldent ollen), lo
provlde your cotreot TlN.
ll vou do not rclum Form W-9 lo the raquestat with a TlN, you mlghl be sublecl
lo iacfup wilhhodlng, Seo Whal ls bachtp wlthholdlng? onpago 2,
By slgnlng ths tilled-out lorm, you:
1. csnlty that th6 TIN yorr aro glvlng ls conect (or you are walllng lor a number
to bo lssuod)r
2. certity that you are not sublect to backup wlthholdlng' or
3. Clalm exomDllon lrom backup wllhholdlng ll you aro a U.S' oxemplpayoo' ll
ui i iiJ arso *tffvhsittat as a U.5. p-erson, your allocable share ol
"*rr."oi",
oiii
o*rnoritrto tncomo ftotn I U.S' tt"do or buslnur ls nd lublocl to tho
wlrirflJifrg td;;-toroi7t psrtners; $ram pl otlocitvoly conntclid lnoomo, and
y-ou are
4, Certlly that FATGA codo(s) entersd on lhls {orm 0tany) lndloatlng thal
uxohpr rid. rt L pArcA ropoiiing, ls coreol. Sed wial Is.FATCA roportlng? on
paga 2 tor furth6t inlormallon.

Cat. No. 1o231X

Form

W-9

(Rev. t2-201a)

EXHIBIT 3

rage r 0r

Dubinlaw.net Mail - Re: Robert King Andia

r

Gary Victor Dubin <gdubin@dubinlaw'net>

Re: Robert King Andia
Jerry Ruthruff <jruthruff@gmai!.9o[>.
To: Cary Victor tiubin <gdubin@dubinlaw'net>

Mon, Dec 28,2015 at 12:19 PM

Gary,
that he has changed his name once or twice, perhaps
I am traveling until January 6th. lt is my.recollection
a tot about him but will be happy to help if I can'
know
i oon't
because of colection -n"r tv an
j"nu"ry
"*-wit".
be useful'
would
it
you
think
6th if
FL-"." giu. me J iarr ".titiitv
Jerry
I 1'
P.S. I assume that you are aware that Tom Schmidt is in chapter
lQuoted text hiddenl

https://mail.google.com/maiVu/0 l2ui:2&ik:cf69a96212&view:pt&q:andia&qs:true&se"

11130120t6

EXHIBIT 4

yage I oI I

Dubinlaw.net Mail - Re: Your Counterclaim

Gary Victor Dubin <gdubin@dubinlaw'net>

Re: Your Gounterclaim
Robert King <kinghawaii@hawaii. rr.com>
To: Andrew Goff <agoff@dubinlaw. net>
Cc: Gary Victor Dubin <gdubin@dubinlaw'net>

Mon, Sep 17,2012 at 12:06 PM

Thank you Andrew'
There are a couple of dates that are incorrect'
We purchased the property in September 2006'
fneietore, the eighih itaim 1as. "June 2006") is incorrect'
or if it needs to be corrected'
I don,t know if ttrat reatt/'maies a ditference at this time
Other than that this looks really strong'
to help us in this matter
Thank You, Mr. Dubin and Richard for your hard work and efforts
Mahalo and Aloha, Robert King Andia
On Sep 17,2012, at 1O:43 AM, Andrew Goff wrote:
Robert,
we filed in your case' I left out
Attached is a copy of the amended answer and counterclaim
know if you have any
me
let
wnlblr are documents you gave us. Please
in"

"*ninitt,
questions,
Regards,

Andrew Goff, Esq'
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hl 96813
Telephone: (80S) 537-2300
E-Mail: agoff@dubinlaw' net
information' lf you are not
This email communication may contain privileged and.confidential
atl hard and
destroy
and
immediatery
the'sendei
*1elni"nJ"o recipieni ptease notiry
your
cooperation'
for
Mahalo
copiesof tnis communicition.

"i".iioni.

<counterclaim fi led'Pdf>

https://mail,google.co m/maillu/01?ui:2&ik=cf69a96212&view:pt&q=andia&qs:true&se'

tlna12016

EXHIBIT 5

Page

Dubinlaw.net Mail - Andia

I oI I

Gary Victor Dubin <gdubin@dubinlaw'net>

Andia
Richard Forrester <rforrester@dubinlaw'net>
To: Gary Victor Dubin <gdubin@dubinlaw'net>

Tue, Oct 25,2016 at 8:05 PM

about his ex wife. He didn't want her to find out about
There was also a conversation I had with Mr. Andia
it
r think. My memory isn't perfect, but r did write about
the setilement because of chird support p"yr"ntJ,
in my letter to the ODC investigator'
Richard T. Forrester
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii96813
tel: (80S) 5371300 ext' 200
fax (808) 523'7733
lQuoted text hiddenl

httos://mail.eoosle.co m/maiI/u/01?ui:2&ik:cf69a96212&view:pt&q:andia&qsnrue&se

r113012016

EXHIBIT 6

Labw t vL L

uubmlaw.net vlail - Ke: I' W: Seulement agrgelllslll f\Ilqra/ I\slussl

Gary Victor Dubin <gdubin@dubinlaw.net>

Re: FW: settlement agreement Andia/ Keidser
Richard Forrester <rforreste r@du binlaw' net>
To: Patricia McHenry <pmchenry@cades,com>
Cc: Gary Dubin <gdubin@dubinlaw'net>

Tue, Aug 18,2015 at4:11 PM

Pat,

please have the Bank make the check out to "Dubin Law offices Client Trust Account," W9
attached.

you within a few days'
We are reviewing the settlement documents and will get back to
Thanks,
Richard T. Forrester
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
tel: (808) 537-2300 ext. 200
fax: (808) 523-7733
<pmchenry@cades'com> wrote:
On Tue, Aug 't 8, 2015 at 1 1:07 AM, Patricia McHenry
Rich rd

me know if it is acceptable.
Attached is the draft of the setflement agreement. Please review it and let
payable
to the counterclaim
directly
made
be
nnJ pi"rr" let me know to whom the check should
lf
to both the Andias and
their
W9s.
Bank
wilineed
the
plaintiffs and/or to your office. lf to the Andias,
your
for
office'
and
that
Andias'W9s
both
the
then ihe Bank will need
ioloi

"ffi.",

Pat

Patricia J. McHenry
Cades Schutte LLP
1000 BishoP Street, 't2th Floor

Honolulu, Hl 96813

Tetephone: (808) 521-9261
Fax: (808) 540-5057

email: pmchenry@cades,com

https://mail.google.comlmaillu/01?ui:2&ik:cf69a962I2&view:pt&q:andia&qs==true&se...

rv30l20r6

LruDuuaw.ngt ryrau - l(E: r w; utrlugluEllt agrEEllrsrrl llrll|ttli'l l\slttDel

).a6wLwLL

This message is intended for the uae of tbe indlvldual or

entity to which it is addressed
and may contain information that ls
privillged, confidential and exempt frcrn disclosure under
appficaUle Law. If you are not the intended reciplent,
any aiesetxinatJon, dlstribution or copying of thig
corununication i3 strictly prohibited.
If you think you have reeeived th13 connrunication ln errot'
pteise notify us inunediately by rePly e-rnall' o! by tel€pbone
(808)521-9200, and detete the orlginal message'

IE

DLO W9.pdf
130K

https://mail.google.com/mullulA/?ti-2&ik:cf69a96212&view--pt&q=andia&qs:true&se.

..

lU3AnArc

,"- llll-9

Glve Form to the

Request for TaxpaYer
ldentification Number and Gertificatlon

(Fov, August 2013)
Dsosrlflnnl of lhg Troagu/y

requesler. Do not
send to the IRS'

htirnalRarsnuosowlco-

on

GARY VICTOR DUBIN
nsm6,

c.i

il

DUBIN LAW OFFICES

Q)

CD

a!

o

Exemptlons (see lnslrucllons):

Gheck approprlale box tor toderal lax classlllcallon:

c

o
O'E

El

lndlvldua17soleproprletor

!Ccorporatlon !S0orporallon IPartnershlp

ETrusuestate
Exempt payso codo (if

AO

FT f|
oc
--f-

ttmnea natttlty company. Entsr the tax olas8ltlcatlon (C-C corpotetlon, S=S corporatlon. P=parheTehlpl >

A6

namS

opl or

o

t

an$_

Exomption lrom FATCA roporllng
codo (it any)

suTE 3100

lt,
E

a

HAWAI| 96813

Part

I

Enlor your TIN ln lho opproprlate box. Th€ TIN provlded must malch tho name glvsn on the "Name" llne
to avold backup wlthholdlng. For lndlvlduals, ihlE 18 your social security numbor (SSN). However, for a
rosldsnt 8llen, eole proprletor, or dleregardad entllyr 8oo the Part t lnstruclions on page 3. For other
entltlos. lt b your €mployer ldantlficatlon number (ElN|' ll you do not have a number, see How to get a
7lN on page 3.
Note, lf lhe account ls ln more lhan one namer see the charl on page 4 for guldelinos on whose
number to entor.

Pad ll
penhllles of perlury,

L The numbor shown on thls lorm ls my cor€ct taxpayer ldentltlcailon number (or I am waillng for a number to be lssued to me), and
2.
I am not subJoct to baokup wlthholdlng bocause: (a) I am exempl from backup wlthholdlng, or (b) I hsvo not been notlflodty the lntornal Revenue
-- !r}it[
am suftea io naofup wlthholdtrig as a rosuh of a fallure to report all lnterest or dlvldends, or (o) tho IRS has noilflod me that I 8m
tln$ifrati

no longer subJect to bsckuP wlthholdlng, and

I am a U.S. cltlzen or other U'S. person (deflnsd below)' and
4, The FATCA code(s) entered on lhls lorm (lf any) lndlcatlng that I am oxempt lrom FATCA r€portlng ls oorreot.
Certlfication lnslrucllons. You must cross out ltem 2 above lf you have been notlfled by the IBS that you a/€ cunently subj€ot to baokup wllhholdlng
your to( roturn. Fot r€al sstalg transactlons, ltem 2 does not apply, For mortgage
because you
cancellatlor ot d€bt, contrlbutlons to an lndlvldual rellromenl anangement (lRA), and
lnterest pald,
not requlred to slgn ths oortlfloatlon, bul you must provldo your correct TlN. Ses the

3.

Slgn lurQot
U,9. pereon)

Dalo

>

rI

wllhholdlng tax on tololgn pannots'sharo ol eftecllvely oonnool€d lncoma, and

General lnstructions
S€ollon tetsronoes aro to ths lnlernal Revonuo Oods unless othoMlse noted.
Futuro dovgloDmonlg, The IFS hae ctoalod a pagE on lRS.gov lor lnlotmatlon
about Form W.9, al www,hs,govlwg. lnlomatlon aboul any lututa dov€lopmonts.
otfecllng Form W-9 (such at legblatlon enaclsd aftor we release lt) wlll be poslod
on thal page.

Purpose of Form
A Dorson who la rooulred lo 0le an lnformatlon return wlrh tbe IRS must oblaln your
coffecl laxoavsr ldentmoatlon number OIN) to repott, tor oxamplo, lncom€ pald to
you, payminti mado to you ln seltlemenl <il payment card and lhhd Party n€lwork
irani'acllons, r€sl sstateiransacllons, mortgsgs lnlerost you pald, acqulslllon or .
abandonmonl of Escured Propsrly, cancsllstlon ol dsbl, or conllibutlons you made
to an lFA.
Use Form W-9 only It you are a U.S. petson (ncludlng a t€sld€nt allen),lo
grovldo youl corecl ilNio the person r€qusstlng lt (the r€quosler) and, wion
oppllcabls, to:
1. Canlry lhet lho TIN you are glvlng ls ootreol (ot you al€ waltlng for a numbBr
to bo lssusd),
2. Cortlly lhal you ate nol subjsol lo backup wlthholdlng, or
g, OlElm sx€mpllon ttom backup wllhholdlng It you are a U,S. oxompl Pay€e. lf
aoolloable, you dro also csrlitylng lhat as a U.S. poreon' youl allocable share ol
air! partneritrtp lncome trom b liS. lladg or buslness ls nol sublect to lho

4, Certlty thal FATCA code(a) enlered on thlE torm (lf any) lndlcatlng thal you als
exempt lrom lhe FATSA roportlng, ls oonoot,
Note. lf you aro a U.S, pstson End a requester gives you a lorm olher lhan Form
W-9 to requ€st your TlN, you musl use lha roquestor'9 lorm ll ll l3 substanllslly
slmllar lo thls Form W-9,
Dotlnltlon ot a U.S. p.tson, For tsdsral lax purposes, you ara consldorod a U'S,
percon ll you sro:

. An lndlvldual who ls a U.S. cltlzen or U.S. resldent allen,
. A partnerghlp, corporatlon, company, or assoclation croalod ot otgsnized

ln ths

Unilod Steles or undsr the laws ot lhe United Slatoe,
. An ostals (othor lhan a lorelgn €stal6), or

.

A domestlc trust (aB dellned ln Regulatlon8 Esollon 301.7701-7).

Sprclal rules tor parlnorshlps. Parlnershlps thal conducl a lrade or buslness ln
lh€ Unllsd Stato8 sre gensrally roqulrdd to pay s wllhholding lax und€r soollon
1446 on any lor€lgn pirtnaro'sharb ot etfoctltoly connected laxable lncoms trom

such busln6se. Furlher, ln cerlaln cases whora C Form l t-g has not besn recelv€d,
.l448
rgqulro s porlnetshlp lo prssume ihai a parlnsr ls a
the rules undsr secllon
.l440
wlthholding te)(, Theretore, ll you are a_
lorelgn person, and pey lho oeolion
U.S. peison lhal la a padnet ln a psnnershlp conducllng e trado or buBlnoss ln lhs
Unllod Stal6s, provlde Form W-g to th€ partnetohlp lo establlsh your U.S. slatug
and avold sectlon 1446 wlthholdlng on your share ot paltnorshlP lncome.

Cat. No. t0231X

Forrn

W-g

(Rov, 8-2013)

lJuDllllaw.Iltrt lvlall - l\tr: f

vv

. Jtrttlgtllgul aBlgt,ulgllL iall\Il.,

r

l\t lLl]el

<LtsL

r \Jr J

Gary Victor Dubin <gdubin@dubinlaw.net>

Re: FW: settlement agreement Andia/ Keidser
Tue, Aug 18,2015 at 4:40 PM

Patricia McHenry <pmchenry@cades.com>
To: Richard Forrester <rforrester@d ubinlaw' net>
Cc: Gary Dubin <gdubin@dubinlaw.net>
Richard,

tf the check is made out to the law firm, we will

still need the Andias' W-9. See my email below.

Pat

From : Richard Forrester [mailto ; rforrester@d
Sent: Tuesday, August 18' 2015 4:11 PM

u

bin law.

n

et]

To: Patricia McHenry
Cc: Gary Dubin

Subjectl Re: FW: settlement agreement Andia/

Keidser

lQuoted text hldden!

https:i/mail.google.comlmail/u/01?ui:2&ik:cf69a96212&view:pt&q=andia&qsnrue&se.

.. 11130/2016

,",'

$f'9

Give Form to the
requesler. Do not
send to the lRS,

Request fol TaxPaYer
ldentification Number and Certification

(Rev. August 2013)
DoDsrtnlonl ol lho Tt88Nry
lnl;rnal Rovenuo SErvlco

on your

GARY VICTOR DUBIN
trorn abovo

6nllty nams,

c.i

o DUBIN LAW OFFICES
CD
(B

Exemptlons (see lnslructions):

o. Chock appropriate box for ladersl tax olasslllcallon:
c

Elnatuiou",.otuproprletor ! Ccorporatton UsCorporalton !

o

orc6

oo
oc fl

Partnership nTrustestats
exompt payee cods (il

ir

corporallon, P=parrnetshlpl>
ttmtteU llatntty company. Enler lhe lax classlllcallon (C=C corporatlon, S=E

zfr
.Ftr
A6

Olhot
opt, or

Eo
d!

C!

U'
E

55 MERCHANT

a

anl)_-*

Exemptlon lrom FATCA rePortlng
cod€ (it rny)
name ond

no.l

suTE 3100

HAWAII 96813

must malch tho name glvsn on lh€ "Nam6" llns
social soourity numbor {SSN). Howevor, lor a
lho Part I lnelrucllons on page 3. For other
you do not have a numbar, soo How lo gel o

Not€.

If

guldelines on whose
lho account ls ln more ihan ono nams, see the chart on page 4 for

number lo onler.

Part ll
Under pen'altles of perlury, I certlty thall
(or I am walllng for a numbet to be lssued to me)' and
1. ThB numbsr shown on ihls torm l8 my conoct taxpayer ldentlllcatlon number
backup wlthholding, or (b) I havo not been nolllled bv lho lnternal Rovenue
2. I am not subjecl lo bsckup wlthholdlng bocau"sor {a) I am oxempt lromfallure
inii*ri 6r dtuldends, or (c) lhe lFs has noillled ma that I 8m
to ruport
ot
a
ieiuit
a
as
wlthholdtng
backup
to
subrocl
am
servlce {lRS) that I
"tt
and
withholdlng'
backup
no longir suUect lo
I am a U,S. oilizen or other U'S. person (defined below), and
am ex€mpt trom FATCA reportlng ls correcl.
4. The FATCA code(s) entered on ihls lorm (lf any) indioatlng lhal I
you
havo been notltled by iho IRS that you aro currently subjoct lo backuP wllhholdlng
if
2
above
out
ltom
cross
must
You
lnstruc{lons.
Cerllfi catlon
your
lax return, For real eltate lransactlons, liom 2 doos nol apply. For mortgage
on
and
dlvldends
all
lntor€st
to
ropo*
you
lallod
have
because
ol dobt, conklbutlons to an lndlvldual rellrement anangemont{RA}, and
proportY,
cancellallon
of
seoured
abandonmont
or
pald,
aoqulsltlon
lnter€sl
you must provlde your coriect TlN. See ths
lhsn lntsrest and dlvldends, you are noi requlred to Jgn ihe Cenncatlon, but

3.

othor

n

Slgnatwo ot
U.S. perron

Daro>

)

General lnstructions
Srcllon rsl€roncss are to tho lntBtnal Rsvenuo Codo unlgss otherwlse noted'
Fututo doveloDmonls. Tlro IRS has orootod o pago on lns'gov to/ lnlormotlon
iws. lnlormsll6n ibout onv tuluts devolopmonts.
il;'t-F;;-w-6. ;i iii. lresov
ii" "olnouon ensoled allor wo rolo€Eo ltl wlll bo poslsd

fi;;i;#ffi

i'i-it iiudtt

on that p396.

Purpose of Forn
your
A ootson who ls teoulred to tlls an lnlormstion roturn wlth tho lns must oblaln
fnN) to rsporr, lo? oxomrlo. lncomo pard ro
partv
notwork
J;ii.-JiJili',ir'"--"'Ji'iJ vtu in isrtr"tdril dt povinent card and lhlrd
vou P8ld..' acqulslllon or .
i;;fi;il;;;i;;ietoiionaaclons, mortgigo- lntarest
iioatuiGont or ssctroo propsrli. cincellitl&r of dobl. br conlributiono you mado

;J;;il;;;'

l;&;iirlaid;fiilt

to an lRA,

f

l

wllhholdlng tax on lorelgn parlnsro'8haro ol efteollvely connscled lncomo, and
you €ro
4, Corllly lhal FATCA code(s) enlorod on lhls torm (lf any) lndloatlng that
excmpl lrdm tha FATCA toporllng, ls conscl.
Noto. lf vou are a U'S. Der6on arxt a rgqussler glves you a {orm other lhan Form
ili-s io r6iuo"ryourTlN, you must use ihe roquostet;s rorm ll lt ls substonllally
slmllar to thls Form W-9.
Dgfinitlon of a U.S. person, For federal lax putposes, you are consldered a U'S'
porson il you are:
i An lndlvlduslwho 13 a U.S. cltlzon ot U.S, tesldgnt alion'
. A psrlnorshlp, cot0olotlon, comp6ny, or sssoclatlon croaled or olganized ln lhe
Unllsd Slolssbr undsr lho laws ot lho Unllod Sl8tos,

.
.

An estato {olher than a lotelgn estate), or

A domosllc irust (ae dollned ln Fl€gulatlons seotion 301.7701'7)'
loi psrlnotshlF. Pa?lnsrshlps lhal conduct I lrado or buslness ln
gonoraily raquked lo bay a wllhholdlng tex undet s6cllon
a;li;J
inas
onv toreton oittnste'ihoro ol sllsillvoty conncclod lsroblo lncom Itom
i i"'i 6,:j"i"6* F,irln'ei in cottuin "aso where d Form w-9 haa nol 6bdsn rscslvcd'
roqulra s Porlnsr6hlp lo ptosumo lhat Patlriar b a
itte irLiu"O*
snO pay lho sociion 1440 wlthholding lu. Tloleluq, It lou ?1o- ?-^
iorstgn p,,tson, ""alon'1446
pirlner
ln
a partn€rshlp conductlng a trad€ or hJslnoss h tne
ls
a
U.S."poison rhar
Uliri Sriree, ptould's Form W'9to the psdnorshiP to oslabllsh your U'S' slalue
dnd avoid sctlon 1446 wlthholdlng on yilr share ol ParlnorshlP hcomo'
St oclol rulos

uE€ Form W-9 only It you 8te o U.s. Patson {noludlng a tesldeni sllon)' lo
p.-ri'o-d yiui io""ii'hN'to the pstson fuquosllhg lt (the requosterl ond' when

i#

appllcablo, to:

fot a number
1, Csnlty that lhe TIN you aro glvlng ls cotrool (or you ar6 walling
1o be lssusd),
2. Gertlfy thal you are nol eubJeot to backup wllhholdlng' ot
tf

cat. No. 10231X

s

S;i* ;*

Form

W-9

(Rsv' 8-2013)

EXHIBIT 7

t4BV

Dubrnlaw.net Mall -.rwo: l(ooen filng An(]ta

r VIJ

Gary Victor Dubin <gdubin@dubinlaw.net>

Fwd: Robert King Andia
Sun, Nov 27,2A16 at1:44 PM

Gary Victor Dubin <gdubin@dubinlaw'net>
Bcc: gdu bin@dubinlaw' net
Explanation I gave Mr' Elerick from Japan'
Gary Victor Dubin

Dubin Law Offices
Suite 3100, Harbor Court
55 Merchant Street
Honolulu, Hawaii96813
Otfice: (808) 537-2300
Cellular: (808) 392-91 91
Facsimile: (808) 523-7733
Email: gdubin@dubinlaw' net
Licensed in California and Hawaii
Begin fonruarded message:
From : Gary Victor Dubin < gdubin@-d-ubin law' net>
Date: October 18,2016 at 1:31:38 PM HST
To: George Elerick <GeorgeE@odchawaii' com>

Subject: Re: Robert King Andia
Dear Mr. Elerick:

Thank you for your acknowledgment below'
return to Honolulu from Japan where as
I will be pleased to respond to your.requests when I
for worthy clients'
business
legal
earlier advised I am currently tiaveling on

I

provided you with a
with respect to Mr. Andia, I would like to remind you that I have already
I return with
anO timety

r"rpint",

Out will further supplement my response when

""rpf"i"
more documentation for you which

I have'

at my invitation before any settlement
As already explained, for instance, I met with Mr. Andia
monies were disbursed'

as I recall in my closing invoice
At that client meeting, Mr. Andia objected to about $15,000
challenging the billing rate for my associates'
please keep in mind that Mr. Andia had requested an extrao.rdinary amount of work from my
defense, more than we customarily are able to prorlide for the
law firm on his foreclosure -narge,
yet he paid us nothing for se.veral years while at the same
small amount *" no*utiy
all of this happened following
time demanCing more wotL tto'i aliof us' and even after
protested our motion to withdraw,
he
his
case,
i"itr"r"ri onl/of nis counierct"ir *" filed infor him'
apparentty exfecting us to continue working

https://mail.google.com/mail/ul0 l?ui:2&ik:cf69a96212&view:pt&q:andia&qs:true&se"'

11/3012016

rage z ur J

Dubinlaw.net Mail - Fwd: Robert King Andta
following sending him my invoice
I explained to him the basis for the charges at our meeting
he specifically at our meeting
proceeds
and
."iiirg r"r1.t the distribution of the settlement
withdrew his objections.

payment of either fees or costs to
lronically, given the fact that he had not meanwhile made a
in effect forcibly had, the
us, naj wj,n"o a contingency fee arrangement with him which we
diskibution of the settlement proceeds would have been the same.
presence.
Mr. Andia approved the distribution nonetheless in my
trust account'
He cashed the setflement check provided him drawn on my client
later as I recall without my files
It was only weeks later or perhaps even more than a month

before md tnat he started his vicious campaign against me'

object to the associates'
Thereafier, he admitted in writing - in writlng - tq mg that he did not
of the
the
disbursement
approved
he
had
that
and
meJting
uirii.gi.t ,t orr rt-*r"io
the
that
complaining
without
money
"
the
took
time
at
itrat
further
and
setflement amounts,
in
Andias
by me for the
i*Or'*"r" rafely placed in my client trus-t account initialed
Bank.
Hawaiian
First
pbticies
of
deposit
with-the
Jccordance
hidden from Mr' Andia. And
Nothing was hidden from First Hawaiian Bank. Nothing was
nothing has been hidden from You.

Judges of the First Circuit
And all of this was explained in writing to you and in writing to three
Court.

against me, his
when Mr. Andia a month or two later decided to start his vicious campaign
corpiaint was considered by three Judges of the First Circuit Court.
Andia's inconsistent request
Judge Ayabe heard his complaint and nevertheless refused Mr.
to withdraw'
request
our
io io'." us to remain as his counsel in his case upon
explain why funds in my client
Judge Crandall gave Mr. Andia two chances at two hearings to
cause when he flrst did
show
o1O91t9
him-an
sending
trust account should be his, including
twice to show up in her
invitation
Grandall's
Jccept.ltioge
did
not
noi.no* up, and Mr. Andia
courtroom.

decide Mr. Andia's clairn,
Judge Chang held a hearing on First.Hawaiian Bank's request to
for the hearing
courtroom
in
his
up
url Anoia did not even show
and upon proper

,"ri""

either.
Bar's voluntary fee
For my part, once he complained, I offered to accept the results of the
about that program
he
knew
that
retorted
Andia
Mr.
which
to
*"olili,in progra*, in response
but refused.

after he had approved the
I even offered to split the difference with him, which was

distribution of settlement funds, and he ignored that offer also.

Crandall, and Chang, and
Meanwhile he has cost me so much time with him, Judges Ayabe,
table'
now you, that those otfers are elearly off the

All of that information was already submitted to you'

when I return to Honolulu, jet lag permitting, I will respond with.even more documentation
answered and with
eacn'ot vour supptemlntal'quesii6ns indicJting where I have already

to

added documentation'

https://mail.google.co mlmail/ul01?li:2&ik:cf69a96212&view:pt&q:andia&qs:true&se'

1l/3012016

Dubinlaw.net Mail - Fwd: Robert King Andia

rage J or J

documented response as
with respect to Mr. Harkey, you will also have a full and complete

I

explained when I return.
through localcounsel Mr' Kern who
Mr. Harkey is not the one complaining about me, but is
explained who is doing that behind
knows nothing aOout tne ta"it, Uut it is ndr. Nora'a" I have
the scenes though him.
law in her home state for ethical
Ms. Nora was recently suspended from the practice of
pro hac vice in Mr' Harkey's
appear
to
viotations and who tfr6refoie is therefore unible
Nevada federal court case'
in her name as trustee so that she could
she had Mr. Harkey put the property there in dispute
take over and run the litigation nevertheless'
and wanted to unethically control
she tried to perpetrate a fraud on the Nevada federal court
counsel), and I refused and left the case
the case and me tas pro f'tt. ui." format approved
remain asking me to do so in writing'
on ethicalgrounds Oespite Mrt Harkey wanting me to

fees and costs and I have evidence
Mr. Harkey moreover was kept fully aware of all of my
from him of that also in writing'
counsel at counsel's expense to cooperate
I am sure you appreciate the burden placed on
gme I

always done so, but at the same
with the ODC in rr.n'ili"ttig"tions dnO that I have
counsel also has to ongoing cases
ethicalobligations
the
Jirirrrrv

k;;; yJ.*

"ptd;dt"
similady comPeting for time.

dated october 7th on october 13th' it
Finally, as for your reporting having. received my letter
tne oite tne response was due and must have merely been an
was written on octooli
earlier date thereon (a cut and paste
inadvertent use of .n-""iri*r r"ti.ito you leaving the
mistake).

iiti

I am sure that every request of yours
Other than that, without my files I cannot be sure, but

tl". U"tn timely acknowledged

and responded to'

Gary Dubin
Gary Victor Dubin
Dubin Law Offices
Harbor Gourt, Suite 3100
55 Merchant Street

Honolulu, Hawaii96813
gdubin@dubinlaw'net
(808) 537-2300 (office)
(808) 392-9191 (cellular)
(808) 523-7733 (facsimile)
Licensed in California and Hawaii

https://mail.google.comlmai]rlu/01?ui:2&ik:cf69a962|2&view:pt&q:andia&qsnrue&se.'.

T113012016

EXHIBIT 8

Page

Dubinlaw.net Mail - Andia

I or./

Gary Victor Dubin <gdubin@dubinlaw.net>

Andia

<gdubin@dubinlaw.net>

Tue' Jan 12'2016 al12:11?M
Gary Victor Dubin
To: iratricia McHenry <pmchenry@cades.com>
<kinghawaii@hawaii'rr.com>
Cc: Richard Forrester lrforresteiddubinlaw.net>, Robert King Andia
Bcc: gdubin@dubinlaw'net
Pat:

Andiaislookingforeverwaytocausetroubleandtodefameme'
I

will handle any defamation and trouble he desires to toss my way.

do in my client trust account as
As I always do with setflement funds, I put the money as.l am supposed to
monies.
setflement
*" nlu" 6y contract an attorneys lien on
usual, for some reason my law
ln this case, although as you will recall, you had requested my w-9 form as
firm was noi inctuOlO as i ioint payee in the final settlement agreement'

the funds were going to arrive, 1..
Since Andia was giving us so much trouble for weeks about when
I signed their names and initialed
FHB
immediately placed them in my client truit account and to satisfy
with my initials.
,

protested at that time.
He was told that within days of its arrival and never

There was no forgery and the funds were entirely secure'
cleared in five days I paid Andia, actually in
Thereafter a few days later once the BoA Rhode lsland check
four days as I recall.
I explained it to him and he
He later came to my office to object to some of my fees (around $19,000),
approved the fees.

He subsequently cashed his check from the proceeds'
his vicious series of complaints'
It was only weeks later after apparenfly triggered by other he began
him to use the Bar voluntary fee dispute
I then kept the disputed monies in my client trust account, inviting
procedures and even suggested we might split the difference.

was a discounted bill'
He refused. lf he sues, we will seek more than we billed him for as that
He came to us in 2012 substantially behind on his mortgage'

We kept him in the home for three years without paying anything on his mortgage'
His initial retainer check bounced.

At first once the settlement check arrived he refused to pay us anything'
Just another day in the life of a foreclosure defense attorney' We meet all kinds'
I am so thankful for the many appreciative clients we have'

https://mail.google.co mlmulyal?ui:2&ik:cf69a96212&view-pt&q:andia&qs:true&se...

1113012016

Dubinlaw.net Mail - Andia

yage

t

oI z

as lucky at Andia'
lronically, few of our clients unfortunately have been as financially
I have noted his having told you that I forged their names'

Let him dig a hole in the ground for himself'
Please preserve any communications you receive from him'
Gary Dubin
Dubin Law Offices
Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii96813
gdubin@dubinlaw.net
(808) 537-2300 (office)
(80S) 392-91 91 (cellular)
(808) 523-7733 (facsimile)

https://mail.google.co m/mail/u/01?ui:2&ilecf69a962t2&view:pt&q=andia&qs=true&se"'

rt/30narc

EXHIBIT 9

ragtr r ul

Dubrnlaw.net Mall - Andla

r

Gary Victor Dubin <gdubin@dubinlaw.net>

Andia
Mon' Jan 11,2016 al 12:02 PM
Gary Victor Dubin <gdubin@dubinlaw-net>
<rforrester@dubinlaw.net>
To: Fred Arensmeyei.farenimeyer@dubinlaw"net>, Richard Forrester
Bcc: gdubin@dubinlaw. net
Gentlemen:
We are in an occupation filled with acrimony'
profession'
None of us suspected this for sure when we naively entered the legal
counsel,
On occasion we have to engage in disagreements with trialjudges, appellate iudggs, opposing
are just
or
counsel
it
out
on
and also unfortunately clienis ilno somdtimes hate the legal system 91d Jakehouse
understandably'
their
of
losing
fear
ovei
the
,irpio o, greedy or;uit oisnonest and very emotional
.

This is an occupational hazard that one must expect and deal with.
pot just on his counterclaim alone, after
Despite the fact that we secured for Andia an incredible settlement
paying
many years.
for
us
additionally
not
after
and
his ihitiat check to us bounced,

to him.
He is now threatening to sue us for $20,000 he claims should not have been charged
not released
The Bank of America setflement check was deposited in our client trust account and the funds
check.
his
cashed
subsequent
until he came into my office and agreed on the split and

trying to threaten
Weeks later he started to complain nevertheless, has now become irrational, apparently
us with an ODC complaint and a lawsuit'

program resolve th.e . .
I tried everything possible with him, offering to have the.Bar voluntary fee dispute
,rner, puiting tfle oisputeJ $zo,ooo in esc'row, or meeting with him, or even splitting the difference, but he
has become totallY irrational.
matter.
I checked on him. He is presently being sued by attorney Ruthruff on another

Ruthruff tells me he owes creditors a fortune and changed his name to avoid them.
I have put $20,000 aside as as a reserve'

Whatever will be will be. Just a cost of doing lawyering'
Gary
Dubin Law Otfices
Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii96813
gdubin@dubinlaw.net
(808) 537-2300 (office)
(B0B) 392-9191 (cellular)
(808) 523-7733 (facsimile)

1113012016
https://mail.google.co mlmaillu/Aftui:2&ik:cf69a96212&view--pt&q:andia&qs=true&se...

EXHIBIT 10

Page 1 of I

Dubinlaw.net Mail - Termination o f services

Gary Victor Dubin <gdubin@dubinlaw.net>

Termination o f seruices
Gary Victor Dubin

<gdubin@dubinlaw.net>

Sun' Nov 27,2016 al2:21 PM

Bcc: gdubin@dubinlaw, net

Andia belatedly says he no longer wants us to represent him after at first demanding we continue to
represent him,-then when we move to withdraw he inconsistently opposes our withdrawing'
Gary Victor Dubin
Dubin Law Offices
Suite 3100, Harbor Court
55 Merchant Street
Honolulu, Hawaii96813
Office: (808)537-2300
Cellular: (808) 392-9191
Facsimile: (808) 523-7733
Email: gdubin@dubinlaw.net
Licensed in California and Hawaii
Begin forwarded message:

From: Gary Victor Dubin <gdubin@dubinlaw.net>
Date: January 9, 2016 at 4:58:19 PM HST
To: Robert King Andia <kinghawaii@hawaii.rr.com>
Gc: Richard Forrester < rforrester@d u binlaw. net>
Subject: Re: Termination o f services
lQuoted text hiddenJ

trttps://mail.goosle.com/maillu/0/?fi:2&ik=cf69a96212&view:pt&q:andia&qs:true&se.

.-

11130/2016

DUbrfrlaW.net

Mall - Andla

ObJeCteO IO OUf

Wlln0rawmg-IIom [Ile rsst ur rtls Lultrslusultr

ull"' taBs I ur r

Gary Victor Dubin <gdubin@dubinlaw.net>

Andia objected to our withdrawing from the rest of his foreclosure casg,
Judge Ayabe rejected his objections and his inconsistent criticism of the
sefilement payout and approved us withdrawing from his case'
Gary Victor Dubin <gdubin@dubinlaw. net>
Bcc: gdubin@dubinlaw. net

Sun, Nov 27,2A16 at2:15 PM

Gary Victor Dubin
Dubin Law Offices

Suite 3100, Harbor Court
55 Merchant Street
Honolulu, Hawaii96813
Office: (808) 537-2300
Cellular: (808) 392-9191
Facsimile: (808) 523-7733
Email: gdubin@dubinlaw.net
Licensed in California and Hawaii

IE

20{6.03.07 SEQ order granting leave to withdraw'pdf
33K

https://mail.google.com/mailfu/Al?ui:2&ik:cf69a96212&view:pt&q:andia&qs:true&se.'

fiBADOL6

GARY VICTOR DUBIN 3181
FREDERICK J. ARENSMEYER 8471
RICHARD T. FOBRESTER 9750
Dubin Law Offices
Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii96813
Telephone: (808) 537-2300
Facsimile: (808) 523-7733
Email: gdubin@dubinlaw.net
Email: farensmeYer@dubinl aw. net
Email: rforrester@du bin law. net

Withdrawing Attorneys for Defendants
Robert K. Andia and Carmelita A. Andia
IN THE CIRCUIT COURT OF THE FIRST CIRCUIT

STATE OF HAWAII
THE BANK OF NEW YORK MELLON
FKA THE BANK OF NEW YORK, AS
TRUSTEE FOR THE
CERTIFICATEHOLDERS OF THE CWALT'
INC., ALTERNATIVE LOAN TRUST 2A06.
36T2, MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2006-36T2,

clvtl No. 12-1-1412-05

BIA

(Foreclosure)
ORDER GRANTING MOTION FOR LEAVE
TO WITHDRAW AS COUNSEL FOR
ROBERT K. ANDIA AND CARMELITA A.
ANDIA
HEARING

JUDGE:
TRIAL DATE:

Plaintiff,
VS

ROBERT K. ANDIA FKA ROBERT KING
KEIDSER; CARMELITA A. ANDIA;
MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS, INC. ACTING
SOLELY AS NOMINEE FOR
COUNTRYWIDE HOME LOANS, INC;
JOHN DOES 1-50; JANE DOES 1-50; DOE
PARTNERSHIPS 1-50; DOE
CORPORATIONS 1-50; and DOE
GOVERNMENTAL UNITS 1.50,

Bert l. AYabe
None Set
HEARING DATE: March 1,2016
HEARING TIME: 9:30 A.M.

Defendants.

CAPTION CONTINUED ON NEXT PAGE

ROBERT K. ANDIA AND CARMELITA A.
ANDIA,

Counterclaim/Third-Party Plaintiffs'
VS

THE BANK OF NEW YORK MELLON
FKA THE BANK OF NEW YORK, AS
TRUSTEE FOH THE
CERTIFICATEHOLDERS OF THE CWALT'
INC., ALTERNATIVE LOAN TRUST 2006.
96T2, MORTGAG E PASS.TH ROUG H
CERTIFICATES, SERIES 2006-36T2; BANK
OF AMERICA, N.A., SUCCESSOR TO BAC
HOME LOANS SERVICING, LP, FKA
COUNTRYWIDE HOME LOANS
SERVICING, LP
Counterclai m Defendants.
and,
AMERICAN MTTIGATION GROUP, INC.;
ROB DECRISTOFARO,

Third-Party Defendants'
ORDER GRANTING MOTION FOR LEAVE TO WITHDRAW AS COUNSEL FOR
ROBERT K. ANDIA AND CARMELITA A. ANDIA
The withdrawing attorneys' Motion for Leave to Withdraur as Counsel for Robert
K. Andia and Carmetita A. Andia, filed on January 15, 2016 (the "Motion"), came on for

hearing March 1, 2016 at 9:30 a.m. before the Honorable Bert l. Ayabe. Richard T.
Forrester, Esq. appeared on behalf of the attorneys of the Dubin Law Offices' Also
present was Robert K, Andia.
Upon the pa;ties' written submissions, the arguments of counsel, and good cause
appearing therefor,
Civil No. 12-1-1412, Circuit Court

K' Andia and
of the First Ciruct; Order Granting Motion for Leave to Withdraw as Counsel for Robert
-Page2of3
Garmelita A. Andia

lT lS HERBY

ORDERED, ADJUDGED, AND DECREED that

the motion is

GRANTED

The last known addresses and telephone numbers of Defendants/Counterclaim
Plaintiffs Robert K. Andia and Carmelita A. Andia are:
Robert K. Andia
7'113 Pilaa Place
Honolulu, Hawaii 96825
(808) 284-7257
Carmelita A. Andia
7113 Pilaa Place
Honolulu, Hawaii 96825

$agl284-7257
DATED: Honolulu, Hawaii;

JUDGE OF THE ABOVE ENTITLED COURT

APPROVED AS TO FORM:

ROBERT K. ANDIA

APPROVED AS TO FORM

CARMELITA A. AN DIA

Civil No. 12-1-1412, Circuit Court
for Robert K. Andia and
Counsel
of the First Giruct; Order Granting Motion for Leave to Withdraw as

Garmelita A. Andia

-Page3of3

EXHIBIT 11

Page

Dubinlaw.net Mail - Last email

I of 1

Gary Victor Dubin <gdubin@dubinlaw.net>

Last email
Gary Victor Dubin <gdubin@dubinlaw.net>
To: Ftobert King Andia <kinghawaii@hawaii'rr'com>
Bcc: gdubin@dubinlaw. net

Sat, Jan 9, 2016 at 11:50 AM

This is my last email on the subject.
all
office, wasted hours of my-time,. and threatened me and my employees' ignored.
You have disrupted my
'r{*
changing
concernlng
your
agreement
retainer
giu"n vor, misread seif-servingly
of the information *"
in your cases that we
fee schedules and our tien 6n setllement monies, ignored the excellent result
your
and hyperbole are
hysteria
your
that
case
in
achieved, and ignored how much remains to do
jeopardizing.

I have offered to again meet with you to resolve all differences'
you claim'
I have offered again to have a neutral third party resolve any discrepancy
I have offered again to continue your case.
I have offered to defend my position in court'
I have run out of alternatives'

Dubin Law Offices
Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii96813
gdubin@dubinlaw.net
(808) 537-2300 (office)
(808) 392-91 91 (cellular)
(808) 523'7733 (facsimile)

L.+rno.//mo;t cnnotc

onrnlrnqll/alolvi:)kik:c.f69a96212&view=nt&o:andia&os:true&se...

fi/3A/2016

EXHIBIT L2

Page 1 of3

Dubinlaw.net Mail - Last email

Gary Victor Dubin <gdubin@dubinlaw.net>

Last email
Sun, Nov 27, 2A16 at 2:26 PM

Gary Victor Dubin <gdubin@dubinlaw,net>
Bcc: gdubin@dubinlaw.net
Andia ignored every attempt made to satisff his concerns'
Gary Victor Dubin
Dubin Law Offices

Suite 3100, Harbor Court
55 Merchant Street
Honolulu, Hawaii96813
Office: (808)537-2300
Cellular: (808) 392-91 91
Facsimile: (808) 523-7733
Email: gdubin@dubinlaw.net
Licensed in California and Hawaii
Begin foruarded message:

From: Gary Victor Dubin <gdubin@dubinlaw'net>
Date: January 9, 2016 at12:29:25 PM HST
To: Robert King Andia <kinghawaii@hawaii.rr'com>
Subject: Re: Last email
your concerns in sequence as you
My employees and I have tried to respond to everyone of
voiced them.

you claimed that you had a flat fee agreement. We provided you with a copy of our retainer
agreement.

you claimed that there were discrepancies, and as a result we met and I explained the fees
to you and you accepted my explanation'

else, and I pointed
You later questioned the fees again, apparently after talking with someone
out the inciease provision in the retainer agreement'

you later questioned our right to the settlement funds, and I explained to you the lien we have
on settlements provided for in the retainer agreement'

you then asked us for a copy of the chect< to secure same from our bank, and I explained to
y;d;ti OefieveO the cheili was sent back to the payor bank, do you called opposing
counsel.

you then threatened to sue us, and I suggested putting the disputed discrepancy in escrow
so a neutral person could resolve the dispute'
you countered by claiming that we abandoned the rest of your case, and I reminded you that
*L nru" ,"peateOty for m6nths offered to continue the case only because otherwise it would
be wasting the effort we put in already.

.a

t

tA

t^ . ^ o t7-*-cz^^.\/-a1'l

O-.-:^'.'_.^+9'^-^^Ain9"at:r'ataPrca

11

l"n/'rn1

6

Page2 of3

Dubinlaw.net Mail - Last email

Now you claim it was all lies'

you and to
How can "yOUR refusal" to respond to sincere attempts to explain the situation to
record?
this
on
lies"
amicanty resolve the matter morph into "ouR
you think that
How has my effort for hours communicating with you been "games," or do
do?
have nothing else to

I

To the contrary, you have not responded constructively to ?ny 9f my explanations. and
suglestions eic6pt with insults, while claiming that I have insulted you when all I have done
is idattempt to satisry your every successive new hyperbole'
please provide this email also in your threatened complaint and don't forget to remind the
court tf,itt we secured for you the biggest voluntary damage payment without a court
law, while at the same time your first
irOg*"ni probably in the history of American foreclosurefirst
erroneously contended that your
your
motivation
true
tnat pro'UaUty gives away
nothing.
attorneys were on a flat fee and deserved

?;$;;

Dubin Law Offices
Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii96813
gdubin@dubinlaw.net
(808) 537-2300 (office)
(808) 392-91 91 (cellular)
(808) 523-7733 (facsimile)

on Jan g,2016, al12:06 PM, Robert King Andia <kinghawaii@hawaii.rr.com>
wrote

Gary,

Lies on top of lies.

You have never "offered again to have a neutral third party resolve any
discrepancy you claim"' This is the first I've heard of this'
Sick of your lies, accusations and false allegations, Dubin'

Who can you be trusted, if you just keep making stuff up?

Robert

on Jan g,2016, at 1 1:50 AM, Gary Victor Dubin <gdubin@dubinlaw.ne|> wrote:

i

- - ^r

t---^2tt-.trrtq..:-.r g.il.:a€AC,^AAlll.0rlriantentRrn:qndlq/<tnc-lrtte,trse

1117O/)-A1 6

Page 3

Dubinlaw.net Mail - Last email

of3

This is my last email on the subject.

You have disrupted my office, wasted hours of my time, and threatened me and
my employees, ignored allof the information we have given you, misread selfservingly your retainer agreement concerning changing fee schedules and our
lien on settlement monies, ignored the excellent result in your cases that we
achieved, and ignored how much remains to do in your case that your hysteria
and hyperbole are jeopardizing.

I have offered to again meet with you to resolve all differences.

I have otfered again to have a neutralthird
claim.

pafi

resolve any discrepancy you

I have offered again to continue your case.

I have offered to defend my position in court'

I have run out of alternatives.

Dubin Law Offices
Harbor Court, Suite 3100

55 Merchant Street
Honolulu, Hawaii96813

gdubin@dubinlaw.net
(808) 537-2300 (office)
(808) 392-91 91 (cellular)

(80s) 523-7733 (facsimile)

htrnc'//mail cnnclp anrn/mail/tt/Ol7ri:)Rrik:o€6QnQ6)l)Rrw;ew-ntRra:andia&nsJnter&se

11/1Ol?.O16

EXHIBIT 13

[r..J

Client(

Signed

-=L/

,+ (tz

DUBIN LAW OFFICES
2A12 LEGAL SERVICES AGREEMENT
1

5.

Attorney-Glient Fee Contract. This document
is a written fee contract with the Dubin Law
Offices, We will provide you with legal services
on the terms and conditions set forth below'
This agreement shall not take effect, however,
and wi will have no obligation to provide legal
services to you, until we have signed this
agreement ihcorporating these terms and
c6nditions by reference and you have paid the
Minimum Fee Retainer as desoribed in

anticipated legal matters. We offer first opinions

with respect to proposed litigation, second
opinions with respect

to

Scope of Services. You are hiring the Dubin
Law Offices as your attorneys to represent you
in specific matters to be set forth at the bollom
of fage three herein. We will provide those
servic-es reasonably required to represent you
in those matters. We will take reasonable
steps to keep you informed of our progress and
to iespond to your inquiries. lf a court action is
filed or binding arbitration commenced on your
behalf, we wif represent you throuqh trial and
post-trial motions. After judgment, we will not
iepresent you on appeal or in execution
prbceedings unless we subsequently ag.ree to
bo so in writing. Unless we make a different
agreement in writlng, this agreement willgovern

mediation, arbitration,

and

case

-

-

Client's Duties. You agree to be truthfulwith

us, to cooperate, to keep us informed of

developments, to abide by this agreernent, to
and to keep us advised
pay
- your bitls on time,
numbers, and
telephone
your
address,
bt
whereabouts at all times so that we can
represent you proPerlY.
1.

ongoing cases,

management, will monitor outside legal billings
for you, and will conduct confidential legal
audits. For such General Counsel Services we
require a minimum fee retainer of at least
depending upon the nature of the
$15,000
work required.
6. Lead Counsel Services. We are prepared to
assume primary responsibility for all of your
litigation needs. We otfer extensive civil and
criminal trial and appellate services tailored to
your individual requlrements. Our minimum fee
ietainer for such basic litigation services begins
at $25,000 depending uPon the subject
matter, expertise required, amounts in dispute,
and anticipated pretdal needs and trialtime'
7 Complex Counsel Services' Occasionally we
are iequested to represent clients in multijurisdictional
and/or multi-case matterE which
-can
require inordinate time and attention. To
adequately perform our responsibilities in such
instances we must request larger minimum fee
retainers, which in the past have ranged from
$50,OOO to $385,000 - depending upon client

all future servlces we may perform for you.

3

to

aitorney and expert referlals, advice pertaining

Paragraph 4.
2.

General Counsel Services. lf requested, we
wilt prwide consultant services to assist you
andlor your existing attorneys in pending or

needs.
8.

Minimum Fee Retainer, You agree to pay us
an initial retainer plus all expenses incurred by
us so that we can begin your work, in exchange
for our agreement to represent you. The
amount of-the minimum fee retainer will be
based upon the timing and nature of the work
to be p6rformeO and the degree of skill and
effort required, ln foreclosure cases, we are
experimeirting with a minimum flat fee retainer,

Contingency Fee Services. We do

not

provide- legal services based upon purely
bontingency fee retainer arrangements, waiving
our minimum fee retainer requirement, except
in personal injury cases. When our rninimum
fee retainer is waived, the client agrees to pay
all expenses, but our fee shall be paid only out

of any gross recovery, based upon a

percentage of such pretax recovery after.case
bxpensed are paid: 25o/o of recovery p,rior to
suit, 40o/o ol recovery during suit, 50% ot
recovery on appeal, or as set by statute.

subject to reevaluation as the case proceeds'

#t;mir
1

9.

Pro Bono Services. A certain percentage of 13. Special Costs Charged. Many cases require
special case expenditures. They will only be
our time is allocated annually to assisting
incurred with your advance written general
persons pro bono, otherwise unable to afford
authorization. These include out of State travel,
legal services. We are only able to assist a
for which you will be responsible for payment of
small handful of qualifying clients in this way'
transportation, meals, lodging, and all other
having to refer most to community agencies,
costs, and the hiring of necessary case
involving
Priority is given by us mostly to cases
experts, accountants, and
consultants,
outcomes
whose
government misconduct, and
to
aid in the understanding,
investigators,
the
in
others
to
benefit
iould be of special
preparation and/or presentation of your case.
general population who are similarly situated.
We will not hire such persons or organizations
10. Legat Fees Charged. We bill hourly for time
unless you agree to pay their fees and charges.
spent, subject to periodic increases, unless an
estimated flat fee is selected, which hourly 14. Billing Statements. We will provide you
periodic statements for fees and costs only at
charges are currently between $550 and $450
you may request, We will bill you the
intervals
and
$180
between
$250
for s-enior attorneys,
equivalent of the excise tax we must pay to the
per hour for associate attorneys, and between
$80 and $100 per hour for paralegal assistants.
An additional lA% hourly is charged for court or
arbitration appearances made on your behalf'
Flat fees are subject to reevaluation based on
case longevity and unanticipated case needs.
11. When Fees Charged, You will be charged for
allwork performed for you. We will charge you
for time spent on telephone calls relating to
your matter, including calls with opposing

tounsel and court personnel. When

legal

personnelworking on your case confer with one
hearings
another
attend meetings

or

or

together, each will charge for time spent.
Wbiting time in court and elsewhere and for
lravel time, both locally and out of town, will
also be charged to You.

12. General Gosts Charged. We will incur and
often be required to advance for your benefit
various case costs and expenses. You agree
to pay those costs and expenses in addition to
oui fbes. Such costs and expenses include
process servers' fees, fees assessed by courts
and other agencies, court reporters' fees, lnter-

lsland travel, long distance telephone and fax
charges, messenger and other delivery fees,
postige, after-hours air conditioning, parking
and other local travel expenses, photocopying
and other reproduction costs, clerical overtime'
computer research, and other similar items.

State of Hawaii on our fees and expenses billed

directly

to you irrespective of your state

of

residence or domicile. There will therefore be
added to your periodic billing an amount equal
lo 4,712% of the total amount billed, or similar

proportional amount should the percentage
State excise tax be increased or decreased, by
Coun$. Payment will be due within 30 days.
15. Additional Required Deposits. Whenever
your Minimum Fee Retainer aE described in
Paragraph 4 is exhausted, you will be required
to make additional deposits, each up to a
maximum of $25,000, within 30 days, to cover
future fees. Once a trial or arbitration date is
set, but not more than six months in advance,
we will require you to pay all sums then owing
and deposit the full amount of fees and costs
we estimate will be incurred in preparing for
and completing the trial or arbitration, as well as
all court, jury, or arbitration fees likely to be

assessed, which may exceed the maximum
deposit amount. Flat fees are not subject to
additional deposits, but are reevaluated based
on reassessment of ongoing case needs.
16, Attorneys' Lien. You hereby grant us a lien on
your claims or causes of action which are the
subJect of our representation, and on any
recovery or settlement thereof, for any sums
owed irs-turing or afier our representation.

(client

-2-

)

Acknowledqement
17. Termination. You may discharge us at any
withdraw
may
We
rules.
time, subject to court
with youi consent or for good cause when lM/e have carefully read and accept
requireO or permitted by professional and the terms of this 2012 Legal Services
ethical rules of the Bar or the Courts. Good
cause also includes any breach of this Ag
agreement by you, your refusal to cooperate
with us, or your decision to disregard our advice <_
on material mafter or any fact or
circumstance that would render our continuing
SIGNATU RE(s) ABOVE
representiation unlawful or unethical'
.sL/t A t2
18. Termination Responsibilities. When our DATED:
services are concluded, all unpaid charges will
immediately become due and payable. After PLEASE PRINT MME(q)"BELOW:
our servicbs are concluded, we will, upon F.-r,eY*
A""dic-request, deliver your files to you, along with any
funds or property of yours in our possesslon,
upon reaionable notice to us in rrvriting. lt is
however our policy to keep you fully informed
by providing you with copies of all documents

a

\(i5
Ca,vrn€.Art

received and generated by us pertaining to your
case; when our services arc concluded
therefore we will have no obligation to provide

iterns which have

you with items or copies of
already been provided to you during the course
of oui representation unless you specifically

A^d&;

ADDRESS BELOW:

'ltt 3

a-c.- (J(ctr-e- . .
\{ =rc.r-s t -s ( *> . t'[clUuc-\-Q. t
'PJ

1

?rBzt

request and you pay the additional expense'

19. Disclaimer Of Guaranty. Nothing in this
agreement or in our statements to you will be
construed as a promise or guaranty about the TELEPHONE, FAX, E.MAIL
outcome of your matter. We can make no such ADDRESS BELOW:
promises oi guaranties given the uncertainties
bt tegat matters. Any comments by us about
the outcome of your matter are comments of

Co-*g) z=.t tLS+

expressions of oPinion onlY'
20. Effective Date. This agreement will take effect
only when you have performed the conditions
staled in Paragraph 1, but its effective date will
be retroactive to the date we first performed
services. Even if this agreement does not take
effect, you will be obligated to pay us for the
reasonible value of any services we may have
nevertheless performed for you with your
knowledge and consent in anticipation of our
being retained bY You.

Legal Services To Be Provided:
Agreed Minim um Retainer:

IJflatfee []

g

[/

fees

(<r,^5 [,^*cL;. ; f^6-scr-ii" nr' <!s.'g\

tlrrD-

APPROVED BY:

DATED: L

-7

Frt ,,r(-. CV U l.nt( n
t)

f Ua*r 'z Irl lrr- -D.
-3-

t-d costs $

f6

(tr.".J

.^J

Client(s

Signedl

oz-/t+ /t:L

DUBIN LAW OFFICES
2A12 LEGAL SERVICES AGREEMENT
1. Attorney-Cllent Fee Gontract. This document

5'

is a written fee conlract with the Dubin Law
Offices. We will provide you with legal services
on the terms and conditions set forth below'
This agreement shall not take effect, however,
and we will have no obligation to provide legal
services to you, until we have signed thls
agreement incorporating these terms and
conditions by reference and you have paid the
Mlnimum Fee Relainer as described in

2.

General Gounsel Services. lf requested, we
will provide consultant services to assist you
and/or your existing attorneys in pending or
anticipated legal matters. We offer first oplnions

with respect to proposed litigation, second
opinions with respect to ongolng cases,

attorney and expert referrals, advice pertaining

to

mediation, arbitration,

and

case

management, will monitor oulside legal billings

for you, and will conduct confidential legal
audits. For such General Counsel Services we
require a minimum fee retainer of at least
$15,000 - depending upon the nature of the

ParagraPh 4.

Scope of Services. You are hiring the Dubin
Law offices as your attorneys to represent you
work required.
in specific matters to be set forth at the bottom
6'
Lead Counset Services. We are prepared to
provide
those
will
We
herein.
of fage three
assume primary responslbllity for all of your
servlces reasonably required to represent you
litigation nee{s. We otfel g$ensive civil a,1{
in those matters. We will take reasonable
: a'd :: :::l diiminar
trial'ahd apf,etldte ii6itie66 tiilored to
' -Si"pr to t eep youtmmrmeo'bt our ptogiess
your indivldual requirements. Our minimum fee
to iespond to your inqulries. lf a court acllon is
ietalner for such baslc litigation services begins
filed or binding arbitration commenced on your
depending upon the subJect
at
$25,000
you
trial
and
through
behalf, we will represent
matter, expertise required, amounts in dispute,
post-trial motions. Afier judgment, we will not

-

i'epresent you

on appeal or ln

to

prbceedings unless we subsequently agree
bo so in writing. Unless we rnake a different

3.

7.

agreement in writing, this agreemenl will govern
all future services we may perforrn for you.
Clienfs Dutiee. You agree to be truthfulwith

cooperate, to keep us informed of
developments, to abide by this agreement, to
keep us advised
pay
- your bills on time, and to

us, to

bt

iour

at all times so that we can

represent you ProPerlY.

needs.
8.

- dependlng upon client

Contingency Fee Services' We do not
provide- legal services based upon purely
contingency fee retainer arrangements, waiving
our minimum fee retainer requlrement, except
in personal injury cases. When our minimum
fee retainer is waived, the client aglees to pay
all expenses, but our fee shall be paid only out

Mlnlmum Fee Retainer. You agree to pay us
an initial retainer plus all expenses incurred by
us so that we can begin your work, in exchange

for our agreement to

Complex Gounsel Services. Occasionally we
are iequested to represent clients in multijurisdictional and/or multi-case matters which
can require inordinate time and attention' To
adequately perform our responsibilities in such
instances we must request larger minimum fee
retainers, which in the past have ranged from
$50,000 to $385,000

address, telephone numbers, and

whereabouts

4.

and antlcipated pretrial needs and trialtime-

execution

represent you, The

amount of-the minimum fee retainer will be
based upon the timing and nature of the work
to be p6rformed and the degree of skill and
effort requlred. ln foreclosure cases, we are
experimenting with a minimum flat fee retainer,

of any gross recoveryr

based upon

a

percentage of such pretax recovery afier case
expenses are paid: 25o/o of recovery prior to

suit, 40% of recovery during sult, 50% of
recovery on appeal, or as set by statute.

subject to reevaluation as the case proceeds'

Mi;,'iffi
1

9.

Pro Bono Servlces. A certaln percentage of 13. Special Costs Charged. Many cases require
siecial case expenditures, They will only be
our time is allocated annually to assisting
incuned with your advance wriften general
to
afford
persons pro bono, otherwise unable
These include out of State travel,
authorization.
a
to
assist
able
are
only
We
iegal services.
for which you will be responsible for payment of
small handful of qualifying clients in this way'
transportation, meals, lodging, and all other
having to refer most to communi$ agencies.
costs, and the hking of necessary case
involving
Priorif is given by us mostly to cases
consultants, experts, accountants, and
government misconduct, and whose outcomes
investigators, io aid in the understanding'
iould be of special benelit to others in the
preparation and/or presentation of your case.
general population who are similarly sltuated.
will not hire such persons or organizations
We
10. Legal Fees Gharged. We bill hourly for time
you agree to pay their fees and charges.
unless
an
spent, subject
-flat to periodic increases, unless
fee is selected, which hourly {4. Bllling Statements. We will provide you
e'stimated
periodic statements for fees and costs only at
charges are currently between $550 and $450
intervals you may request, We will bill you the
for slnior attorneys, between $250 and $180
of the exclse tax we must pay to the
equivalent
between
and
per hour for associate attorneys,
Stbte
Hawaii
on our fees and expenses billed
of
paralegal
assistants.
per
for
hour
$eO ana $100
you
irrespective of your state of
to
directly
An additional 10% hourly is charged for court or
There will therefore be
domicile.
or
residehce
your
behalf'
arbitration appeatances made on
periodic
an am,9-q11t equal
ygrqr
bllling
to
added
on
based
to
reevaluation
Flat fees ara subjecl
billed, or slmilar
total
amount
to 4.712%bt tfre
case longevity and unanlicipated case needs.
percentage
the
should
proportional
amount
11. When Fees Charged. You will be charged for
by
decreased,
or
tax
increased
be
excise
Staie
allwork performed for you' We will charge you
days.
within
30
will
be
due
Payment
County,
for time spent on telephone calls relating to
your matter, including calls with .. opposing 15. Additional Requlred Deposlts, Whenever
your Minimum Fee Retainer as described in
iounsel and court personnel. When legal
iraragraph 4 is exhausted, you will be required
personnel working on your case conferwith one
to
make additional deposits, each up to a
hearings
or
another or attend meetings
of $25,000, within 30 days, to cover
maximum
spent'
for
time
will
charge
each
together,
fees.
Once a trial or arbitration date is
future
wliting time in court and elsewhere and for
than six rnonths in advance,
not
more
set,
but
wlll
town,
havel Ilme, both locally and out of
you
to pay all sums then owing
require
we
will
to
also be charged You.
amount of fees and costs
the
full
deposit
and
'12. General Costs Charged. We will incur and
incurred in preparing for
will
estimate
be
we
often be required to advance for your benefit
or arbitration, as wellas
the
trial
completing
and
various case costs and expenses, You agree
jury, or arbitration fees likely to be
all
court,
to
addltion
to pay those costs and expenses ln
assessed, which may exceed the maximum
oui fbes. Such costs and expenses include
deposit amount. Flat fees are not subject to
process servers' fees, fees assessed by courts
additional deposits, but are reevaluated based
bnd other agencies, court reporters' fees, lnteron reassessment of ongoing case needs.
lsland travei, long distance telephone and fax
lien on
charges, messenger and other delivery fees' 16. Attorneys' Lien. You hereby grant us a
the
are
which
action
your
causes
of
or
claims
parking
postige, after-hours air conditioning,
any
on
and
representation,
of
our
subject
photocopying
bnd other local travel expenses,
recovery or settlement thereof, for any sums
and other reproduction costs, clerical overtime,
owed us during or after our represeniation.

computer research, and other similar items.

(client

-2-

ls

Acknowledqement

17. Terminatlon. You may discharge us at any
time, subject to courl rules. We may withdraw

with your consent or for good cause when
requlred or permitted by professional and
ethical rules of the Bar or the Courts. Good
cause also includes any breach ol this
agreement by you, your refusal to cooperate

lA/de have carefully read and accept

the terms of this 20'12LegalServices

with us, or your declsion to disregard our advioe
any fac! or
on material matter
circumstance that would render our continuing
STGNATURE(S) ABOVE
represontation unlavvful or unethical,
<>?18. Terminatlon Responsibilities. When our DATED:
servlces are concluded, all unpaid charges will
immediately become due and payable. After PLEASE PRINT MME(S) BELOW:

or

a

our seruices are concluded, we will, upon R.:h.a_y* t(.-rq A\,4J11r._
\
request, deliver your files to you, along with any
C ,r.t ,
-!rfunds or propgny of .yours in our possession, Ca-rzn g-hTa U n C{"

upon reasonable notice to us in ,iilriting. lt is
however our policy to keep you fully informed
by provlding you with copies of all documents

i

-

t"&",',"t::Jil"]j o:f'.'#'':1Jo".T ADDRESs
flELow: A r
therefore we will have no obligation to provide 'f-tt 3 {J1 [a,.^a- $'r\a--C-ei1
you with items*or copies of items which have,.
irreaoy neen providel to you auring the course l{ g;,o<s \ -s ( ..> - [+a \-]t<{ (
of oui repredentation unless you specifically
:".".31"t-?:i

request and you pay the additional

expense. 'J q BZS

19. Disclaimer Of Guaranty, Nothlng tn this
agreement or in our stalements to you will be
construed as a promise or guaranty about the TELEPHONE, FAX, E-MAIL
outcome of your matter. We can make no such ADDRESS BELOW:
promises or guaranties given the uncertainties
of legal matters. Any comments by us about
the outcome of your matter are comments of
expressions of opinion only.
20. Effectlve Date. This agreement will take effect

only when you have performed the conditions
stated in Paragraph 1, but its effective date will

C:-=$) z='t 4z-S?
..3oB>)1f, (tr<
{<r,-,-<

)

t^-t*^;; > UGGyG* ' rnn' <'ss\

be retroactlve to the date we first performed
services. Even if this agreement does not take
etfect, you will be obligated to pay us for the
reasonable value of any services we may have
nevertheless performed for you with your
knowledge and consent in anticipation of our
being retained by you.

Legal Services To Be Provided:
Agreed Minim um Retainer:

[

]flat fee I

sl

[/

rees

APPROVED BY:

7

DATED:

FA,,r( Cv c'fvaf ,

$-$-w-

J

f ua&r z It t lrl -W.
-3-

4L
L

06KrrI(
I'xl costs$ l. trno
(, {.

EXHIBIT L4

Page

Dubinlaw.net Mail - Fwd: UPdate

I of1

Gary Victor Dubin <gdubin@dubinlaw.net>

Fwd: Update
Fri' Nov 6' 2015 at 11:28 AM
Richard Forrester <rforrester@dubinlaw'net>
To: Robert King Andia <kinghawaii@hawaii.rr.com>
<gdubin@dubinlaw.net>
C", Courtney dpearing ocsFearing@dubinlaw.net>, Gary Dubin

Mr. Andia:
is completed. Ms. McHenry attached the wrong
document to her last email so I'm still waiting on a copy of the fully executed agreement..I
will send you that when I get it. Mr. Dubin is preparing an invoice and will be in touch with
you shortlY.

I have been informed that the settlement

Richard T. Forrester
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
tel: (808) 537-2300 ext.200
fax: (808) 523-7733
<kinghawaii@hawaii,rr.com> wrote:
Fri, Nov 6, 2015 at 10:50 AM, Robert King Andia
Aloha Richard,

on

agreement'
Just checking if you have heard anything form Mc Henry/BOA about the settlement
Please call me to let me know what's up.

Aloha, Robert
(8OB)284-7257

hnns://mail.goosle.co m/mail/u/0/?ui:2&ik:cf69a96212&view:pt&q:andia&qs:true&se.

..

lt130/2016

Page2 of 7

Dubinlaw.net Mail - Fwd: UPdate

Fri, Nov 6,2A15 at 11:28 AM
Richard Forrester <rforrester@dubinlaw.net>
<kinghawaii@hawaii'rr.com>
Andia
To: Robert King
Cc: Courtney Spearing <cspearing@dubinlaw.net>, Gary Dubin <gdubin@dubinlaw.net>

Mr. Andia:
have been informed that the settlement is completed. Ms. McHenry attached the wrong
document to her last email so I'm still waiting on a copy of the fully executed agreement. I
will send you that when I get it. Mr. Dubin is preparing an invoice and will be in touch with
you shortly.

I

Richard T. Forrester
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
tel: (808) 537-2300 ext.200

fax:

(808) s23-7733

On Fri, Nov 6, 2O1S at 10:50 AM, Robert King Andia <kinghawaii@hawaii.rr.com> wrote:
Aloha Richard,
Just checking if you have heard anything form Mc Henry/BOA about the settlement agreement.
Please call me to let me know what's up.
Aloha, Robert
(808) 284-7257

Richa rd Forrester < rforrester@d u bin law' net>
To: Gary Dubin <gdubin@dubinlaw'net>

Fri, Nov 6,2015 at12:20PM

Richard T. Forrester
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
tel: (808) 537-2300 ext.200

fax:

(808) 523-7733

Fonrvarded message
From: Robert King Andia <kinghawaii@hawaii. rr.com>
Date: Fri, Nov 6, 2015 al l2:19 PM

Subject Re: Update
To : Rich ard Fo rrester

<

rforrester@dubin law. net>

Thank you.
I am a bit confused by the preparation of an invoice. We paid a $16,5000 flat fee for services and have
never been informed or made aware nor have we received any additional invoice'
We have not entered into any litigation beyond standard negotiations between the parties.

Please explain.
Thank you.

https://mail.google.com/maillu/0/?ui=2&ik:cf69a96212&view:pt&q:andia&qs:kue&sear...

31812016

EXHIBIT 15

Page

Dubinlaw.net Mail - Fwd: UPdate

I ofl

Gary Victor Dubin <gdubin@dubinlaw.net>

Fwd: Update
Richard Forrester <rforrester@d u binlaw' net>
To: Gary Dubin <gdubin@dubinlaw.net>

Fri, Nov 6, 2015 at12:20 PM

Richard T. Forrester
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813

tel: (808) 537-2300 ext. 200
fax: (808) 523-7733
Fonryarded message

From: Robert King Andia <kinghawaii@hawaii'rr'com>
Date: Fri, Nov 6, 2015 at12:19 PM
Subject: Re: UPdate
To: il icha rd Forrester < rforrester@d u bi n law. net>
Thank you.
and have
I am a bit confused by the preparation of an invoice. We paid a $16,5000 flat fee for services
invoice.
any
additional
received
we
have
nor
aware
made
never been informed or
We have not entered into any litigation beyond standard negotiations between the parties.
Please explain.
Thank you,
Aloha, Robert
lQuoted text hlddenl

httos://rnail.soosle.co mlmail/u/Al?ui:2&ik:cf69a96212&view:pt& q:andia&qs:fiue&se.

..

ll/3012016

Page

Dubinlaw.net Mail - Fwd: UPdate

I of1

Gary Victor Dubin <gdubin@dubinlaw.net>

Fwd: Update
Rich ard Forrester <rfo rrester@du

bi

nlaw' net>

Fri, Nov 6,2A15 at 12:23 PM

To: Gary Dubin <gdubin@dubinlaw.net>

His agreement is not a flat fee (see attached). FYI, Mr. Andia has been a difficult client.
Richard T. Forrester
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813

tel: (S08) 537-2300 ext. 200
fax: (808) 523-7733
lQuoted text hiddenl

IE

r-a-^^.

2A1r2,O2.l7 ADM client seruice agreement.pdf

275K

u*^:1 -^^-l^ ^^*/*^;l /",tA"il,i-12,iL:o€AQqQA)1)Rtviatxt:ntR,n:anelia&os{nte&se.^. 11/30/2016

Page

Dubinlaw.net Mail - Fwd: UPdate

I of 2

Gary Victor Dubin <gdubin@dubinlaw.net>

Fwd: Update
Richard Forrester <rforrester@dubinlaw.net>
To: Robert King Andia <kinghawaii@hawaii.rr,com>
Cc: Courtney Spearing <cspearing@d ubin law. net>
Bcc: gdubin@dubinlaw. net

Fri, Nov 6' 2015 at 1:04 PM

Mr. Andia:
please see the attached client agreement. I am sorry if this comes as a surprise to you: your
agreement is not a flat fee agreement, but rather a standard retainer agreement. As
eiplained in paragraph 10, ybu are to be bill on hourly rates. Whatever amount you paid into
your retainer will-be applied to the balance on your account. As I said, Mr. Dubin is preparing
a statement that incorporates everyone's time.

Unfortunately, titigation is expensive, especially so to be as well represented as you have
been and continue to be; and still, it is much more expensive (in a different way) to be
represented poorly, I am not sure you fully appreciate how great of a victory you have been
handed.
Also, please keep in mind that while a portion of your case has been resolved and is now
being'accounted for, your retainer must also have enough funds left in it to defend and
successfully resolve what is to come.
Mr. Dubin may be the better person for you to contact regarding any dispute of your retainer
agreement; however, I am happy to answer any questions you might have regarding my
time or your case in general moving forward,
Richard T. Forrester
Dubin Law Offices
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813

tel: (808) 537-2300 ext. 200
fax: (808) 523-7733
On Fri, Nov 6, 2015 at 1219 PM, Robert King Andia <kinghawaii@hawaii.rr.com> wrote:
Thank you.
I am a bit confused by the preparation of an invoice. We paid a $16,5000 flat fee for services and have

never been informed or made aware nor have we received any additional invoice'
We have not entered into any litigation beyond standard negotiations between the parties.
Please explain.
Thank you.
Aloha, Robert

'

On Nou 6, 2015, at 11.28 AM, Richard Forrester <rforrester@dubinlaw.net> wrote:
lQuoted text hlddenl

httns.//rnail onnole r:nrnlrr,ailhr/O[?fi:).&jk:c.f69a9(t2]?-&view:nt&.n:andia&ostnre&se"""

11/30/2016

Dubinlaw.net Mail - Fwd: Update

IE

Page2

of2

2012.02,17 ADM cllent service agreement.pdf
27SK

httos://mail.soosle.com/maiVr:/01?ui:2&ikecf69a95272&view:pt&q:andia&os:true&se.

.. 1113012016

EXHIBIT 16

Page

Dubinlaw.net Mail - Last email

I

ot'3

Gary Victor Dubin <gdubin@dubinlaw.net>

Last email
4 messages

Gary Victor Dubin <gdubin@dubinlaw.net>
To: hobert King Andia <kinghawaii@hawaii' rr'com>
Bcc: gdubin@dubinlaw.net

Sat, Jan 9,2A16 at 11:50 AM

This is my last email on the subject.

you have disrupted my office, wasted hours of my time, and threatened me and my employees, ignored. all
your retainer agreement concerning changing
of the information we tav" given you, misread self-servingly
excellent result in your cases that we
the
ignored
monies,
setllement
6n
lien
fee schedules and our
hyperbole are
achieved, and ignored how much remains to do in your case that your hysteria and

jeopardizing.
I have offered to again meet with you to resolve all differences.

you claim'
I have offered again to have a neutralthird party resolve any discrepancy
I have otfered again to continue your case.
I have offered to defend my position in court'
I have run out of alternatives.

Dubin Law Otfices
Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii 96813
gdubin@dubinlaw.net
(s0B) 537-2300 (office)
(B0S) 392-91 91 (cellular)

(80S) 523-7733 (facsimile)

Gary Victor Dubin <gdubin@dubinlaw'net>
To : Ri ch a rd Forrester < rforrester@d u bi n aw' net>
Bcc: gdubin@dubinlaw.net

Sat, Jan 9,2016 at 11:52 AM

I

FYI/Gary
Dubin Law Offices
Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii96813
gdubin@dubinlaw.net
(80s) 537-2300 (otfice)
(808) 392-9191 (cellular)
(808) 523-7733 (facsimile)
Begin forwarded message:

https://mail.google.co mlmullu/0/?ui:2&ik:cf69a96212&view--pt&q:andia&qs:true&sear...

31812016

Page

Dubinlaw.net Mail - Our email exchange

I of1

Gary Victor Dubin <gdubin@dubinlaw.net>

Our email exchange
Gary Victor Dubin <gdubin@dubinlaw.net>
To: Robert King Andia <kinghawaii@hawaii.rr.com>
Bcc: gdubin@dubinlaw.net

Fri, Jan 8,2016 at 1:40 PM

Your constant email battle with me is wasting time and is unproductive'
It is you that first engaged in name calling, not me.
When you left my office before, you informed me that you understood and approved the calculations.
Let me know if you would like to meet again, turn the clock back, and further discuss the calculations and
what you have belatedly labeled a "deficiency,"
That is a right I afford all clients whether they are agreeable or otheruvise'
I cannot keep spending time back and forth with emails like this morning'

Perhaps another in person discussion will satisfy your concerns.
I am fully prepared to explain everything to you again and listen to your new grips'

And please remember that you are the one who terminated our seruices, not us'
We have done a great deal of work not only on your counterclaim but on the main case as well which is
now going to be wasted upon our withdrawal.
you cannot
And if you wish us to withdraw, we will do so, but we would prefer you hire other counsel first as
succeed representing You rself'

So at least let's calm the rhetoric down.
Dubin Law Offices
Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii96813
gdubin@dubinlaw.net
(808) 537-2300 (office)
(808) 392-91 91 (cellular)
(808) 523-7733 (facsimile)

1a, -.tt,,-^tt

----l^

^^-^/.^--:1 t..l.rtq--:-aR-|1.-^SAO6OA1119',riotr-al9tn:qaAiq2rns:tnrre,Qtce

11l"nl?O1

6

EXHIBIT T7

Dubinlaw.net Mail - Here is yet another way to resolve your disputed claims. The State

B...

Page 1 of

Gary Victor Dubin <gdubin@dubinlaw.net>

Here is yet another way to resolve your disputed claims. The State Bar has a
voluntary program if both parties agree for situations such as this. lt is of
course much cheaper and much faster than court proceedings.
Gary Victor Dubin <gdubin@dubinlaw, net>
To: Robert King Andia <kinghawaii@hawaii.rr.com>

Sat, Jan 9,2016 al2:12 PM

Bcc: gdubin@d ubinlaw, net

http:l/hsba.orglimages/HSBA/Attorney-Client%20Relationslinstructl2-12.pdf
Shared via the Google app

DUBIN LAWOFFICES
Suite 3100, Harbor Court
55 Merchant Street
Honolulu, Hawaii96813
Office: (808) 537-2300
Cellular: (808) 392-9191
Facsimile: (808) 523-7733
Email: gdubin@dubinlaw.net

hftns.//mail gnnole cnrnlrnail/trlO/1fi:) k.ik:cf69a96).1?-&.vie,w:nt&.o=andia&ns:frtte&se-.. 11/1012016

I

r!^aii State Bar Association

ATTORN EY-CII ENT RELATI ONS COMMITTEE
VOLUNTARY FEE DISPUTE PROGRAM

AUR PROGRAM IS VOLUNTARY, LIMITED IN SCOPE AND THEREFORE WE ARE UNABLE TO
THIS DOCUMENT AND FORWARD TH'S WTH YOUR PETffrcN.
GUARANTEE OIJTCOME. YO'J MIJST DATE AND
PLEASE READ CAREFIJLLY AS

'NIT'AL

Jurisdiction

o
r
r
r
o

voluntary, not mandatory, therefore if the respondent attorney chooses not to participate in
mediation/arbitration we will have no choice but to close the file.
Client should review his/her retainer or cllent fee agreement to ascertain whether there is a third party' named
in the agreement for resolving disputes; usually found on either the 4th or 5th pages of the agreement. lf there is
a 'named'third party the HSBA is precluded from assisting the parties in this instance.
Our program

is

The program fee dispute program is an OPTION parties may choose to resolve their fee dispute.
Our rules limit the types of disputes; we do not accept third party fee disputes ie., Association Lawye/s Fees, or
fees determined by the Courts or Workers Compensation, Department of Labor statute and/ or other statute
determined fees,
Certain disputes are also unacceptabte, such as those with ethical and or malpractice claims. For clarification
you may contact the HSBA Fee Dispute Administrator Evelyn Gomez at lris@hsba.ore; or callthe 537-1868
between 8 a.m-4:30 p.m., weekdays, before submitting the petition.

Review & Acceptance
a

a

Med

Workload of HSBA staff, and volunteer panel members will determine the length of time to both
review, process petition for acceptance into the program, as well as subsequent mediationfarbitration.
lf after review, the petition is accepted; the petition will be forwarded to the respondent attorney for response;
if the attorneys response is in the affirmative helshe will forward a non-refundable administrative fee of either
StOO or $150 respectively for mediation or arbitration for further follow through.

iationlArbitration

r

lf either of the parties are not on Oahu, there is no need for a 'face to face' meeting, however, partles will need
to be available by phone or email and be prepared to communicate with mediator/arbitrator at a time and date
indicated. Parties will be responsible for their own expenses to facilitate communications.

o

The service the HSBA provides will be limited to rendering a decision in the case of an Arbitration or reasonably
assisting the parties through Mediation; however the mediator will not 'torce' parties to a resolution' The HSBA
will not'cotlect'or enforce arbitration award through a court proceeding.

PROCESS

.
.
'.
.
.
.

Client fills out petition and returns to HSBA for review.
The review time is subject to workload of HSBA and the Chairs of Committee
Upon review and acceptance of petition it is forwarded to attorney for review & comment
The HSBA gives the attorney 15 days to respond to petition. Upon the receipt of an affirmative response we
will locate a panel member to assist parties.
HSBA contacts a panel member/Panel member subsequently checks for conflicts/if none
Parties are notified of designated panel member
Panel member contacts parties to set up meeting and follow-through.

.
.

.

o
o

ln case of an arbitration, the Hawaii State Bar Association's panel member will render his/her
decision based on evidence provided, however the arbitrator does not have duty or jurisdiction to 'collect' on
the arbitration award for the prevailing party or nor file documents in court to obtain such.
With regards to medlation, though the panel member mediator will be assisting, the mindset of the parties
going into mediation will not be to prove who is right and wrong ; rather for the parties to 'come to a place'
OR 'middle ground' where they are willing to 'cut losses and compromise' in order to 'move forward' to a
resolution. Therefore, the parties are responsible for their own resolution and in cases where the 'parties' are
unable to resolve their issues; or see 'eye to eye' on their issues, neither the HSBA nor the panel member will
be responsible for the unsuccessful mediation.
We hope this clarifies the limitation and scope of our program. For further questions, please contact the Fee
Dispute Administrator by emailing to lris@hsba.orp; or callthe 537-1868. Thank you.

The petitioner shall submit one original and one copy of the petition to the HSBA.
Shoutd the petitioner wish to have the petition subnitted returned at the conclusion of the
fee disputeprocess , the petitioner may contactthe HSBAto make arrangements for pick
up; please note there is no puhlic parking at the Alakea Corporate Twr building which
houses the HSBA.
*
HSBA FEE DISPUTE PROGRAM Alakea Corporate Twr
1100 Alakea Street, Ste. f 000,
Honolulu, Hi96813
pHoNE.808-537-1868 OR EMAIL TO EGOMEZ@HSBA.oRG

PLEASE INITIAL AND DATE INDICATING YOU UNDERSTAND THE SCOPE AND LIMITATIONS OF
OUR PROGRAM.
INITIAL

DATE

,PLEASE NOTETHEREIS NO PUBUC PARKING AVAILABLE AT AUR OFFICE BUILDING

10.75

Dubinlaw.net Mail - Here is yet another way to resolve your disputed claims. The State

B...

Page

I of 1

Gary Victor Dubin <gdubin@dubinlaw.net>

Here is yet another way to resolve your disputed claims. The State Bar has a
voluntary program if both parties agree for situations such as this. lt is of
course much cheaper and much faster than court proceedings.
Robert Kin g And ia <kin g hawaii @hawaii. rr.com>
To: Gary Victor Dubin <gdubin@dubinlaw.net>

Sat, Jan 9,2016 at 2:55 PM

Yep.
[Quoted lext hidden]

https://mail.google.com/maillul}nui:2&ik:cf69a96212&view:pt&q:andia&qs:true&se.

..

fiBAD016

Dubinlaw.net Mail , Here is yet another way to resolve your disputed claims. The State

B...

Page

I of 1

Gary Victor Dubin <gdubin@dubinlaw.net>

Here is yet another way to resolve your disputed claims. The State Bar has a
voluntary program if both parties agree for situations such as this. lt is of
course much cheaper and much faster than court proceedings.
Gary Victor Dubin <gdubin@dubinlaw.net>
To: Robert King Andia <kinghawaii@hawaii.rr,com>
Bcc: gdubin@dubinlaw.net

Sat, Jan 9,2016 at 3:09 PM

Does "Yep" below mean you agree?

Frankly, I have been afraid to suggest anything to you, for whatever I suggest as an amicable way to
resolve the dispute, you seem to take it as a concession that I think I did something wrong, which is not
true.
lf you are accepting my latest suggestion to amicably resolve this dispute, clarifo for me if you want us to
continue with your case as well.

As I told you, it would be a waste not to do so, but obviously given all that has occurred we would have to
come to a further understanding regarding that also, or as we have continually suggested, you should
consider replacement counsel if you do not trust us, for that would be inconsistent with the nature of an
attorney-client relationship obviously.
Dubin Law Offices
Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii96813
gdubin@dubinlaw.net
(808) 537-2300 (office)
(808) 392-91 91 (cellular)
(808) 523-7733 (facsimile)
lQuoted lext hlddenl

httns://mail.soosle.com/mullul0l?ui:2&ilecf69a962l2&view:pt&q:andia&qsnrue&se.

..

fiBA12016

-

Dubinlaw.net-Mail - Here'isaet another way to resolve your disputed claims. The State

B...

Page 1 of

1--

Gary Victor Dubin <gdubin@dubinlaw.net>

Here is yet another way to resolve your disputed claims. The State Bar has a
votuntary program if both parties agree for situations such as this. lt is of
course much cheaper and much faster than court proceedings.
Robert King Andia <kinghawaii@hawaii.rr.com>
To: Gary Victor Dubin <gdubin@dubinlaw'net>

Sat, Jan 9,2016 at 4:52 PM

Gary,

Yep means I am well aware of the State Bar Mediation program'
I am also aware of the many other actions that I can take against you
Robert
lQuoted text hlddenl

h6ps://mail.goosle.com/mail/ul0/?ui:2&ik:cf69a96212&view:pt&q:andia&qs:true&se.

..

1113012016

